<html>
<title> - HIGH STAKES AND HARD CHOICES: U.S. POLICY ON IRAN</title>
<body><pre>[Senate Hearing 112-474]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 112-474
 
           HIGH STAKES AND HARD CHOICES: U.S. POLICY ON IRAN

=======================================================================


                                HEARING

                               BEFORE THE


                     COMMITTEE ON FOREIGN RELATIONS

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 28, 2012

                               __________

       Printed for the use of the Committee on Foreign Relations


      Available via the World Wide Web: http://www.gpo.gov/fdsys/




                  U.S. GOVERNMENT PRINTING OFFICE
75-021                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
               William C. Danvers, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        




                            C O N T E N T S

                              ----------                              
                                                                   Page

Cartwright, Gen. James E., former Vice Chairman of the Joint 
  Chiefs of Staff, Washington, DC................................    14
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3
Pickering, Hon. Thomas R., Under Secretary of State for Political 
  Affairs and former U.S. Ambassador to the United Nations, 
  Washington, DC.................................................     5
    Prepared statement...........................................     9
Sadjadpour, Karim, senior associate, Middle East Program, 
  Carnegie Endowment for International Peace, Washington, DC.....    17
    Prepared statement...........................................    19

                                 (iii)



                     HIGH STAKES AND HARD CHOICES: 
                          U.S. POLICY ON IRAN

                              ----------                              


                       WEDNESDAY, MARCH 28, 2012

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Menendez, Webb, Shaheen, Lugar, 
Corker, and Risch.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order.
    Good morning. Thank you all for being here with us this 
morning. This is an important hearing on a timely subject.
    Iran, I think it is safe to say, presents the biggest 
foreign policy challenge facing the United States and others at 
this moment in time. There are many facets to this particular 
issue--decades of mutual antagonism, Iran's support for 
terrorism, a deep-seated regional sectarian rivalry. But also 
their perceptions of U.S. involvement in the region, the 
unresolved Mideast peace process, which contributes or at least 
provides certainly an excuse for many in the region.
    And of course, front and center is Iran's nuclear 
enrichment and reprocessing program, which continues despite 
best efforts of the international community, the International 
Atomic Energy Agency, and the U.N. Security Council to confirm 
its represented, purported peaceful interests.
    According to American intelligence officials, obviously, 
there are serious questions that remain about whether Iran has, 
or has not, made a decision with respect to nuclear weapons. 
But based on abundant evidence, there is little reason to doubt 
our intelligence community's assessment that Iran is developing 
various nuclear capabilities, technologies that better position 
it should it choose to build or break out to a nuclear weapon.
    In response, the Obama administration has worked with a 
broad international coalition to assemble an unprecedented 
sanctions regime. The administration is now implementing new 
legislation requiring countries to significantly reduce Iranian 
crude purchases or risk being cut off from the U.S. financial 
system.
    The European Union has banned new oil import contracts with 
Iran and will end all preexisting contracts by July 1. And most 
recently, Swift, the Belgian cooperative that manages the 
world's financial transfer network, announced that Iranian 
banks will no longer have access to the system.
    Collectively, these steps are having, to the best of 
people's knowledge, significant effect on the Iranian economy, 
and they make it increasingly difficult for Iran to sell oil 
and obtain hard currency. I think certainly this pressure has 
affected Iran's nuclear program, but it hasn't yet achieved 
compliance with the international community's nuclear program 
requirements.
    I believe the reality is that sanctions alone are highly 
unlikely to simply create a spontaneous Iranian decision to 
moderate their nuclear program. I think it is going to take 
diplomacy, and it is going to take some level of understanding 
about mutual interests.
    The President has rightly and repeatedly said that all 
options are on the table. And I personally do not think anybody 
should doubt the President's resolve regarding this.
    The prospect of a military confrontation gives next month's 
P5+1 meeting added urgency. Even at this late date, a 
coordinated strategy of pressure and diplomacy gives us, I 
think, the best chance of avoiding conflict, which I think is 
in everybody's interests if it is possible.
    So we must engage in hard-nosed diplomacy that affects or 
offers Iran a strategic choice--to continue to push forward in 
defiance of international norms as an outlier facing crippling 
economic sanctions and the possibility of a military 
confrontation, or embrace the opportunity of a new Mideast of 
publicly certifying the legitimacy of what it has already 
insisted is a civilian program by fully cooperating with the 
International Atomic Energy Agency under a comprehensive 
inspection regime and thereby rejoin the mainstream of the 
community of nations.
    I would comment parenthetically that there is a long 
history of our involvement going back to the 1950s and plenty 
of reasons for people in that part of the world to have their 
own suspicions. And it is important for us also to be 
thoughtful about how we can proceed forward here in the most 
effective way.
    After more than three decades of hostility, it is certainly 
not realistic to expect that one high-level meeting is going to 
resolve all the differences or erase all of those decades, 
years of either misunderstanding or mistrust or actions by one 
or the other that exacerbate that mistrust. To have any 
prospect of success, we need an approach that gives diplomatic 
engagement space to breathe without creating delay and 
certainly without being drawn into a drawn-out process that 
reduces the options for Israel or for other countries with 
respect to potential breakout.
    That is the challenge. The challenge is to find a solution 
that is acceptable to both sides but also gives the 
international community confidence that Iran neither has the 
capacity nor the desire to make a mad dash to nuclear weapons.
    To help us sort through these challenges, we have, I think, 
an excellent panel of witnesses. First, we will hear from 
Ambassador Tom Pickering. Maybe I should say Secretary Tom 
Pickering, one of our most capable and experienced diplomats.
    He is a former Under Secretary of State for Political 
Affairs, but he has also served remarkably as Ambassador to the 
United Nations, Russia, India, Israel, El Salvador, Nigeria, 
and Jordan. I don't know if I left anything out there, Tom. 
That is an extraordinary portfolio by anybody's standards, and 
it is a delight to have his experience and wisdom here.
    Then we will also hear from Gen. James Cartwright. 
``Hoss,'' as he was called and is called, retired last year 
after 40 years of service in the Marine Corps. His last 
assignment was as Vice Chairman of the Joint Chiefs of Staff, 
and he previously served as Commander of STRATCOM.
    And last, we will hear from Karim Sadjadpour of the 
Carnegie Endowment for International Peace, and Karim is 
certainly one of our leading experts on Iran, an important 
voice in this discussion.
    And we welcome all three of you back to the committee.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, I thank you again, Mr. Chairman, for 
scheduling this very important hearing, and I join you in 
welcoming our distinguished witnesses.
    I hope that their insights will give us a better 
understanding of the impact of United States policy and the 
efforts of the international community in confronting the 
Iranian threat.
    As a personal aside, as I see Ambassador Pickering, I am 
reminded of his rescue of Senator Sam Nunn and me from problems 
at the Moscow airport, but that is a long story. I appreciate 
it, nonetheless.
    And likewise, Karim Sadjadpour has been so helpful at our 
congressional Aspen Institute conferences in which we have 
discussed Iran. He has brought his insights, together with 20 
members of both houses, and we appreciate that.
    I said at our last hearing in December on Iran that Iran 
was a direct threat to United States national security, the 
security of our close ally Israel, and other United States 
interests in the region. That situation persists today. Iranian 
intransigence toward fulfilling its international obligations 
with respect to its nuclear program continues.
    Iran's parliamentary elections on March 2 were boycotted by 
opposition candidates and reformers, and the election results 
appear to embolden Iran's hard-liners. Even as its isolation 
grows, little has changed in Iran.
    Democratic movements across the Middle East and North 
Africa gave voice to the demands for democratic pluralism and 
respect for the rule of law and human rights, but the Iranian 
regime continues its brutal repression of journalists, 
political activists, students, and trade unionists.
    Moreover, it continues its persecution of Christian pastor, 
Yousef Nadarkhani, who faces execution because of his religious 
beliefs. Iran's support for the regime in Syria, where the 
death toll has surpassed 8,000 people, has enabled President 
Assad to pursue his deadly campaign of attacks against the 
Syrian people.
    Outside Iran, the political posture of many of Iran's 
neighbors has changed and with it, perhaps, their inclination 
to respond 
to Iran's acquisition of nuclear capability by seeking their 
own weapons.
    Four years ago, I commissioned a staff report entitled 
``Chain Reaction: Avoiding a Nuclear Arms Race in the Middle 
East,'' to assess the risks of nuclear proliferation in this 
volatile region should Iran get a nuclear weapon. It reviewed 
the history of nuclear proliferation and focused on three 
countries--Saudi Arabia, Egypt, and Turkey.
    That report expressed grave concerns about a Middle East 
arms race, and I will be interested to learn our witnesses' 
views on this proliferation dynamic.
    In order to confront the threat posed by Iran to our 
national security, our interests in the region, and the 
security of Israel, I continue to believe that our challenge 
lies in the achievement of an international consensus that 
presents the Iranian regime with the plain choice between 
pursuing its nuclear weapons program or preserving the economic 
viability of the country.
    In December, the Senate unanimously passed an amendment to 
the Defense Authorization Act sanctioning those institutions 
doing business with the Central Bank of Iran, which lies at the 
center of Iran's efforts to circumvent multilateral sanctions. 
I am hopeful about reports suggesting that these and other 
sanctions are beginning to bite. I am also encouraged by the 
news that certain European Union countries and Japan have 
significantly reduced their crude oil imports from Iran, and 
that the United States and its international partners are 
working with other importing countries to further cut off the 
Iranian regime's lifeblood derived from its oil revenues.
    I have repeatedly urged the Obama administration to lessen 
our own need for foreign oil imports by permitting such things 
as the construction of the Keystone XL pipeline from Canada. 
Although the United States imports no oil directly from Iran, 
the more non-Iranian oil on the global oil market, the more 
there is for others seeking alternatives to Iran's crude.
    The Energy Department says Keystone would help lower gas 
prices for Americans, and it would give the United States more 
flexibility in a crisis. All options in the Iranian crisis 
remain on the table.
    The fundamental question for United States policymakers is 
whether a sanctions regime can be imposed that will verifiably 
stop Iran's nuclear weapons program. Can we say that sanctions 
are having the intended effect of inducing change in Iran's 
behavior?
    I'll be interested to hear our witnesses address this 
question because it is, I believe, the fundamental issue. If a 
cornerstone of our current policy is sanctions, it seems to me 
incumbent to ask: Are they working and are they being used to 
good effect?
    I thank you again, Mr. Chairman, for this hearing.
    The Chairman. Well, thank you, Senator Lugar.
    I appreciate the participation of everybody.
    And Mr. Secretary, you are on. All the full statements will 
be placed in the record as if read in full, and we welcome your 
testimony.

 STATEMENT OF HON. THOMAS R. PICKERING, FORMER UNDER SECRETARY 
 OF STATE FOR POLITICAL AFFAIRS AND FORMER U.S. AMBASSADOR TO 
               THE UNITED NATIONS, WASHINGTON, DC

    Ambassador Pickering. Thank you very much, Chairman Kerry 
and Senator Lugar and members of the committee.
    It is a great pleasure to be back and, indeed, an honor and 
privilege for me to be asked today to testify on this most 
important issue, as you have described it. I thank you for your 
invitation.
    It is also an honor and a privilege for me to join General 
Cartwright and Karim Sadjadpour, both of whom I admire and 
respect and both of whom I believe will have very important 
contributions as well to make.
    My hope is to use my prepared testimony as a basis to 
address three issues regarding Iran and the United States, 
which I believe are responsive to a number of points in your 
opening statements. First, what do we know about Iran's nuclear 
program and its evolution? Second, what is the current 
diplomatic situation, and what might we expect? And third, what 
options are available to us and my recommendations in that 
regard.
    My career has been in diplomacy. I will, therefore, focus 
my time and attention to that aspect of the subject.
    Let me begin by saying that the Iran nuclear program is not 
a new device. It began under the Shah and, indeed, we had 
concerns that under the Shah the program was much broader in 
its future intent than a civil nuclear program.
    When the revolution came in 1979, that program was 
terminated by the incoming government. After the attack of Iraq 
on Iran and the long 8-year war, Iran showed new interest in a 
program. Among other things, it purchased a civil power reactor 
from Germany, the delivery and construction of which was shut 
off by the United States.
    It then went to the Russians, who made a deal consistent 
with proliferation that the fuel would be provided by Russia 
and then Russia would take back the spent fuel to do everything 
possible to assure there would be no plutonium route to a bomb.
    Subsequent to that, Iran got very interested in enrichment, 
seeking, as it said, to provide itself with the possibility of 
assuring its own future needs, even though it had a one-reactor 
program where the fuel was provided by Russia.
    Iran now has something on the order of 6,000 to 9,000 
centrifuges, enriching in the main to the 3.5 percent low-
enriched uranium requirement for civil power reactors. It has 
an additional small set of centrifuges enriching to 20 percent 
in order to provide, in their view, the necessary fuel for a 
research reactor originally provided by the United States, 
which makes medical isotopes.
    The upgrading of Iranian enrichment capability is worrying, 
as well as the accumulation of a large amount of low-enriched 
uranium, which, were there to be a breakout effort, would 
probably be detected but would certainly give them something of 
a head start. And there are various estimates about how long it 
would take.
    The conclusion that I reach--but I believe it is a 
conclusion reflected by a number of others, including the 
United States Government, Israel, and, indeed, Iranian 
friends--is that Iran is attempting to put itself in a position 
to know enough about technology and have enough equipment that 
were it to make a decision to make a nuclear weapon, it would 
be able to do so.
    I think the other important point is that the U.S. 
intelligence judgments recently reaffirmed by General Clapper 
seem to continue to indicate that Iran has not made a decision 
to make a nuclear weapon.
    Let me now turn to diplomacy. In recent days, diplomacy has 
quickened in terms of its possibilities. Some weeks ago, Iran 
invited the P5+1, the European three--Britain, France, 
Germany--Russia, China, and the United States, to resume 
negotiations on its nuclear program. It did so in a fairly 
straightforward way compared to past efforts.
    Recently, the P5+1 has responded positively, and as you 
know, overnight the information was published that the talks 
will take place in Istanbul on April 14. Leading into the 
talks, there have been two or three interesting developments 
that I think are worth looking at in terms of trying to read 
the tea leaves.
    Not only was there the invitation to the talks, there was 
more Iranian cooperation, I understand, with the IAEA and 
efforts to clear up the past. More significantly, the famous 
fatwa in Iran against making nuclear weapons was reissued by 
the Supreme Leader in terms that for the first time in my 
knowledge actually mentioned nuclear weapons.
    And the Supreme Leader took notice in his blog site, 
whatever that may be, of the President's recent speech to AIPAC 
and did so positively. These may or may not be significant. We 
will have to wait and see.
    It is also true that the President in his speech to AIPAC 
made something of a serious point, and I am grateful for it, 
that diplomacy was a choice for him to move ahead for the 
future. That means we are on the verge of new talks.
    Past talks have suffered, Mr. Chairman and members of the 
committee, because they have been a series of one-night stands. 
Meetings that took place over 1 day, where one side or the 
other, either Iran or the United States, had a proposal, and 
the other side rejected it. They went away and then spent 
another 6 to 8 months negotiating a resumption of talks.
    Happily, Catherine Ashton, who speaks for the P5+1 in 
recent days, has said the intention on our side, if I can call 
it that, is to open the door to a negotiating process which 
lasts more than 1 day and, hopefully, will have some 
continuation to address not only what issues are not 
acceptable, but how they might be made acceptable through a 
negotiating process. That is important.
    Let me now briefly run through the options that I feel are 
out there for us and for Iran for the future. The first might 
be a throw-away option, but it is not an insignificant option 
to some. That is the question of whether we just sit back and 
let Iran proliferate.
    Perhaps that may be a form of containment. Perhaps it is 
not. I feel it is not a good option. It puts down the tools 
that we have now put ourselves in place to use through 
sanctions to assist in opening to diplomacy. It condemns us to 
perhaps a stark choice between permitting proliferation to take 
place and using military force.
    Not only that, further proliferation in the region I think 
is a significant possibility if Iran proliferates. The more 
proliferation we have, the more chance there is for the use of 
a weapon either through accident, miscalculation, or design. 
That is not the world we want for us or for the future, and I 
would say that others in the region, including Iran, need to 
think very carefully about that.
    The second option is military force. There have been 
volumes written on this. My sense is, without going into all 
the details, that the risks that we and others would take, 
including Israel, are far more significant than the advantages 
we might achieve. And the general assumption is that an 
advantage of setting back the program for several years would 
be a useful justification.
    I don't agree with that. I think that it is, in my view, a 
seriously flawed approach, particularly now when we haven't 
exhausted the other options, including diplomacy.
    I would only say two or three things about the military 
option. It has a very high propensity, in my view, of driving 
Iran into the direction of openly declaring and deciding, which 
it has not yet done, according to our intelligence, to make a 
nuclear weapon seemingly to defend itself under what might look 
to them and others to be an unprovoked attack.
    Iran has great possibilities for asymmetrical reactions, 
including against Israel through Hezbollah and Hamas, who have 
accumulated a large number of missiles. And we can go on from 
there, including the potential vulnerabilities of Americans 
overseas to asymmetrical reposts and the fact that were that to 
happen, one option for us would be a larger, more engaged, more 
significant all-out attack on Iran to try to stop such attacks 
against Americans.
    It is a series of potential escalatory possibilities that 
puts us deep in the potential for another land war in Asia, 
something I think that we have spent the last number of years 
trying to get out of.
    The next to the last option is sanctions. You and others 
have described it. I believe, quite frankly and very 
succinctly, that sanctions without an open door to a process to 
exploit the value of those sanctions in the diplomatic arena is 
a mistake. Expecting, in fact, that through the escalation of 
sanctions, Iran will, like the Marxist famous ripe plum, drop 
into our laps--that Iran will accept any particular alternative 
we have in mind--is certainly in the dream world rather than 
reality.
    But I do very much believe that sanctions--and there is a 
whole panoply of these--can be very helpful in moving us into a 
diplomatic direction. And then that raises the question of 
diplomacy.
    Now let me say just two or three things again about the 
importance of diplomacy. And hopefully, you will want to 
explore some of this as we go ahead.
    Diplomacy, in my view, is a question of timing. Timing is 
very significant. Timing ought to take advantage of sanctions, 
but it ought to move the process when seemingly the other side, 
through its invitation, is ready.
    It also ought to enjoy the opportunity to move before we 
have exhausted all of our sanctions because that is throwing 
away our future leverage to affect the outcome of diplomacy if 
we, in fact, continue to wait. We don't have an unlimited time, 
but we have some time for diplomacy to work.
    The second question is how should we start? Very frankly 
there is on the table already an Iranian proposal which is very 
simple, but potentially a good starting place. That proposal 
would, in effect, commit Iran to cease enriching uranium to 20 
percent if we, on our side of the fence, the P5+1, were 
prepared to help them obtain the fuel for the research reactor 
that makes medical isotopes.
    To me, this is a good starting place. It is a good starting 
place for a number of reasons. It is a proposal on the table. 
It is a simple proposal, and it is one that could be 
accomplished at coming meetings at Istanbul, in my judgment.
    It might be followed by other steps and stages. And I want 
to say two things here about those. A follow-on step that would 
be germane and relevant would, in effect, be to take the 
original Iranian proposal, once agreed, and turn it into a cap 
on enrichment in Iran at 5 percent, which basically 
accommodates their stated intention to have fuel for future 
nuclear reactors but, on the other hand, keeps them from 
escalating enrichment up the line toward weapons grade.
    The second piece would be to take the accumulated 20 
percent material which they have, something around 100 
kilograms, and use that to be turned over in exchange for the 
turnover to them of the fabricated fuel elements to make the 
reactor function. And perhaps this deal at that stage could be 
enriched by a freeze, not a cessation, but a freeze, on several 
of the important sanctions--those perhaps on the Central Bank 
of Iran and those that relate to a stop in European purchases 
of crude oil.
    Beyond that, I will say only that other steps and stages 
might take advantage of two very important objectives that are 
significant for Iran. One is to do everything we can to 
strengthen and improve and, indeed, embed International Atomic 
Energy Agency monitoring in Iran.
    It is the one way we have to demonstrate and, indeed, 
control an Iranian program at the time which they may seek, 
either clandestinely or otherwise, to achieve a breakout. In 
regard to that, for a long time, I have personally advocated 
that we then should be willing to put on the table a positive 
response to Iran's interest in enriching material for civil 
purposes only--that is, below the 5 percent threshold.
    And I would add to that that we should continue to insist 
that an accumulation of such material be under safeguards and 
perhaps moved out of Iran if it is above any current need which 
they have.
    Finally, I think an endgame for diplomacy would, 
importantly, have four elements. A full commitment on the part 
of Iran to stay completely away from bombmaking, if I can put 
it that way. Second, a full inspection system that would have 
the maximum capability both to control and deter that. In 
return, permission for Iran to enrich below the threshold of 5 
percent and, second, the gradual removal of sanctions on Iran.
    One final point, Mr. Chairman. There are other issues 
nonnuclear, as you and Senator Lugar have pointed out, between 
the United States, the Western countries, and Iran. They need 
to be addressed, perhaps outside of the nuclear framework. But 
they can help to improve relationships and, indeed, build on 
early progress, which I hope will be achieved in the nuclear 
area.
    They relate to the futures of countries like Afghanistan 
and Iraq, where we share some common interests, but they also 
relate to questions of Iranian preoccupation with drugs and, 
indeed, our preoccupation with Iranian support for terrorism, 
for violations of human rights, and for Iranian objections to 
and steps taken in the past against the Middle East peace 
process.
    We have an opportunity now, Mr. Chairman, to move ahead. 
Not too long ago, an Iranian friend of mine who had played an 
important role in Iranian foreign policy over the years told 
me, ``The historical record shows that every time we have been 
ready, you have not been. And every time you have been ready, 
we have not been.'' Maybe we can emerge from that position of 
the past to begin with some small things that we can use to 
find a way to pull the curves of mutual interest together 
rather than to have them continue to bend apart.
    Thank you very much.
    [The prepared statement of Ambassador Pickering follows:]

                 Prepared Statement of Thomas Pickering

    Mr. Chairman and members of the committee, it is an honor and a 
privilege to be asked to testify this morning on one of the most 
important issues of the day. I thank you for your invitation. It is 
also an honor to join General Cartwright and Karim Sadjadpour, both of 
whom I admire and respect.
    My hope is to use my prepared testimony to address three issues 
regarding Iran and the United States:
        (1) What do we know about Iran's nuclear program and its 
        evolution?
        (2) What is the current diplomatic situation and what might we 
        expect?
        (3) What options are available to us?
    My career has been in diplomacy. I will therefore focus most of my 
time and attention to that subject.
                          the nuclear program
    Let me begin by saying Iran was interested in nuclear questions at 
the time of the Shah. He started a large program. Indeed, the Shah was 
responsible for articulating a program to build 20 civil power reactors 
which has now been readopted by the present, revolutionary government. 
There were many of us who had suspicions that the Shah--much as Brazil, 
South Korea, and Taiwan in those days--was interested in objectives 
beyond the civil program. But, out of deference to the Shah and his 
position in the world and his influence, the United States asked fewer 
questions than it should have.
    When the Islamic revolution came in 1979, interestingly enough, the 
new regime called off the Shah's nuclear program. The new regime set a 
firm policy--a fatwa or Islamic ruling--that nuclear bombs are un-
Islamic and forbidden. And, interestingly enough, the Supreme Leader, 
Khamenei, within the last few weeks has repeated that particular fatwa, 
which at the moment appears to be from his perspective a binding 
attribute of Iranian policy.
    After the Iraqi attack against Iran in the early 1980s, the long 8-
year war, and much attention to Iraqi nuclear developments, we saw 
evidence that the Iranians began to reconsider their nuclear program. 
By the 1990s, the United States had a concern about a reactor at 
Bushehr the Iranians bought from Germany and we succeeded in persuading 
Germany to cancel the deal. Then Iran sought Russian support to build 
the reactor.
    The Russians have a continuing policy that they will build reactors 
overseas, but only on the basis that they provide the fuel and take 
back the spent fuel. Since civil light water nuclear power reactors 
produce plutonium in the spent fuel, it is important that the spent 
fuel route to a nuclear weapon, at least with respect to the Russian-
built Bushehr reactor, has been closed for now by the Russian policy 
and by its long term contract with Iran.
    At the time of the new deal with Russia on Bushehr, Iran became 
interested in enrichment. Enrichment of uranium is, of course, 
important for civil power reactors, but that requires a very low level 
of enrichment, 3.5 to 5 percent. Any enrichment level above that raises 
suspicion because it begins to point toward moving to much higher 
levels, around 90 percent, which makes uranium capable of being 
fissioned in a bomb. So the United States became worried about Iranian 
intentions regarding enriching uranium.
    At the same time, in the late 1990s, the United States learned that 
at least some Iranians in the atomic establishment made a deal with Mr. 
A.Q. Khan from Pakistan. Iran bought, according to the description by 
some Iranians, material to build a uranium enrichment capacity. Some 
Iranians claim that they did not know what they had acquired from A.Q 
Kahn but they paid a great deal of money for it.
    It turned out the Iranians acquired materials that helped them 
develop their enrichment program. Iran apparently bought a schematic 
plan for a nuclear weapon that appears to have Chinese origins and 
perhaps additional material.
    That particular set of efforts went ahead until 2003. Without 
trying to judge why, in 2003 Iran apparently made a conscious decision 
not to continue activities that would, in effect, constitute a 
committed program to make nuclear weapons.
    Since then, we believe that the Iranian posture essentially has 
been to try to develop technology and perhaps equipment that would put 
them in a position to be able to make a decision to move to a nuclear 
weapon, but they have not decided to develop a nuclear weapon. That 
conclusion seems to be a widely shared view in the U.S. Government and 
reportedly in Israel. It parallels some Iranian explanations of its own 
program.
    In the meantime, I would say the following about the Iranian 
program: They have around 6,000-9,000 centrifuges. The bulk of those 
are enriching to the civil nuclear reactor scale, 3.5 percent, at the 
underground facility at Natanz. They are storing the low enriched 
uranium (LEU) material because Iran has no current use for it. This 
storage of growing quantities of LEU is another of the reasons why the 
United States has had serious questions about Iran's civil nuclear 
program. It could constitute a basis for a ``breakout'' by moving it 
into higher levels of enrichment for a weapon.
    Second, a few years ago, Iran decided to start enriching uranium to 
20 percent because it has a research reactor in Tehran, which the 
United States supplied to the Shah. The Tehran Research Reactor (TRR) 
is used for making medical isotopes (isotopes used, for example, in 
cancer treatments). Iran had run out of fuel for that reactor which 
consists of fuel elements of 20 percent enriched uranium. So they 
started enriching to 20 percent. Iran now has accumulated approximately 
100 kilograms of 20 percent material, and approximately 3-4 tons of LEU 
(3.5 percent) now in Iraq, on which if they did further enrichment 
work, would put them in a position to have material for two, three, or 
four nuclear weapons They would then need to develop the capacity to 
fabricate that material into a usable weapon that could be effectively 
delivered for it to have a military use--a process that might take 
several years. They have also developed and begun testing at least one 
trial fuel element for the TRR.
    Iran has also started a plutonium-based program. They have a (40 
MW) research reactor at Arak which could be used to produce plutonium. 
But that plant is not now functioning; it is still being worked on. One 
of the key questions that is often ignored with the preoccupation with 
Iran's uranium enrichment, is that the United States and the 
international community needs to find a way to deal with the potential 
this reactor provides Iran to produce and then separate plutonium for a 
weapon should it decide to do so. It is not yet operational. It's a 
heavy water reactor, which means it could use natural uranium with a 
heavy water moderator to produce plutonium. Iran is developing a heavy 
water plant to support the Arak reactor.
                            recent diplomacy
    Six weeks or so ago, the Iranians said they were prepared to 
restart negotiations with the E3+3 on their nuclear program. They 
appeared to offer renewed talks without preconditions. They sent a 
letter to the IAEA, the International Atomic Energy Agency of the 
United Nations, which is the U.N. agency designated to carry out 
nuclear inspections to prevent proliferation and which has been also 
Iran's appropriately preferred intermediary for negotiations on the 
nuclear issues. The letter was, unlike previous Iranian letters, 
apparently almost a ``plain vanilla'' diplomatic invitation, without 
preconditions and qualifications, which was encouraging.
    Within recent days, there has been a response on the part of the so 
called E3+3, (essentially Britain, France, Germany, Russia, China, and 
the United States) accepting the Iranian offer to negotiate. We 
understand that these negotiations will begin on April 13, but it is 
still unclear where. There has been some speculation they might be held 
in Geneva, Switzerland.
    Interestingly, other possibly helpful signals have come from the 
Iranian side. The Supreme Leader was reported to have commented 
positively on President Obama's speech to AIPAC [American Israel Public 
Affairs Committee], something that we would not have expected and has 
happened rarely, if at all.
    Within days prior to the Supreme Leader's remarks on President 
Obama's speech, he reissued the language of the fatwa against military 
nuclear development, this time referring specifically to the 
prohibition on making nuclear weapons. And just before that, he 
reintroduced into the world of literature a book he wrote 40 years ago 
on an arcane subject having to do with the origins of Shiism. But the 
value of this particular introduction is that the last two words of the 
title contain the words ``flexible compromise.''
    Reading these tea leaves suggest a possible message from Tehran on 
negotiations. We do not know exactly what to make of that message but 
it is hard to ignore.
    On the U.S. side for a long time there has been an internal dispute 
between the United States Government and some Europeans, and possibly 
inside the U.S. Government as well, over the question of whether, in 
any negotiations, we would end up permitting Iran to do any enrichment. 
This is a ``right'' which Iran claims as a signatory to the 
Nonproliferation Treaty. There have been past proposals, including on 
my part, that it might facilitate a helpful conclusion to negotiations 
if enrichment were permitted at civil levels (3.5-5.0 percent) and was 
concretely firewalled from efforts to make a nuclear weapon by serious 
IAEA-run inspection systems in Iran.
    That set of differences has perhaps begun to change. Secretary 
Clinton in a speech in February opened the door very carefully to the 
possibility that, with good behavior and real progress, Iran would be 
permitted to enrich to levels consistent with civil energy needs.
    President Obama, who has not declared himself in months on the 
question of how to move forward, was quite specific in his AIPAC speech 
that diplomacy--``the big D,'' as a lot of my friends call it--is now 
something he wishes to support. From his perspective, while the 
military option is always there, it is now apparently a clear second 
choice--rather that the first choice is diplomacy.
    This is a help because we now seem to be witnessing the beginning 
of an exchange of signals across the airwaves which could serve to 
reinvigorate the preparations and the potential for a negotiation.
    We have had 32 years of separation from Iran and, with the rare 
exception perhaps in setting up the Karzai government at Bonn in 2002, 
we've had almost no cooperation with the Iranians on issues of 
importance to both of us. We have a relationship effctively dominated 
by mistrust and misunderstanding.
    My own view is that anyone who believes that he understands enough 
about Iranian internal politics to be able to use it as a set of 
guideposts to calculate how to move ahead on negotiations is doomed to 
failure. This is particularly true for America whose favorite fetish is 
trying to pick the negotiator on the other side. And anybody in Iran 
who thinks he understands American politics enough to know the full 
answer to the future of our relationship is probably in the same trap.
    We will need to move ahead on the basis that we will deal with Iran 
the way it is and Iran must deal with the United States the way it is. 
Both sides will have deal without preconditions.
    Finally, there has been some encouragement regarding the duration 
of the meetings. In the past there have been 1-day meetings where one 
side simply rejected the proposal of the other. There was no 
opportunity provided to negotiate and discuss differences. It appears 
that the intention this time is to make the up-coming meeting a 
multiday event with hopefully then the opportunity for constructive 
give and take.
                         what are the options?
    As a long term participant in Washington ``option production,'' I 
see four options. This is unusual--in Washington there are usually only 
three and the decisionmaker is supposed to choose the middle one.
    The first option is a nonoption. But it is important to understand 
it. That is to ``sit back and enjoy it.'' Iran will proliferate and 
then we can rely on deterrence to deal with the problem. Not a very 
good option--one that in my view can only encourage proliferation and 
its attendant dangers in the rest of the region.
    It is certainly clear that within the last 2 years, several Arab 
countries have developed a new fascination with civil nuclear power. 
The United States is very much aware of and concerned about it. The 
United States is apparently finding ways to keep it hedged, but it is 
nevertheless a problem.
    There are serious concerns on the part of some that Iran would 
immediately provide its first nuclear weapon to Hezbollah or Hamas, or 
a similar organization. I don't fear that happening. I think the first 
instinct of any nation that acquires a nuclear weapon is to make sure 
nobody else gets one. The second instinct is to sit down and figure out 
what one really does with the bomb.
    A move toward further proliferation in the region would set back 
the hope that many people have, however hard it may be, that we could 
actually move in the direction of either lower numbers or maybe even 
zero nuclear weapons in the future.
    Therefore, the ``sit back and enjoy it, let them proliferate'' 
option for all those reasons makes no sense. It might be a result of 
the failure of other options, but it is not in my view a useful option.
    The second option, the one that might be dangerous to choose 
because it is has many more disadvantages than advantages, is the 
military option. Let me from the perspective of a former diplomat set 
out a few key pros and cons.
    On the advantage side, our friends in Israel would like to be able 
to set back the Iran program even 2 (or maybe 1) years, if they could. 
They would do so on the expectation that something else more helpful 
will turn up in the meantime. That is a weak justification to move to 
the calamitous decision of using military force.
    At the moment at least, Iran apparently does have a conscious 
nondecision to make nuclear weapons. But if they are attacked without 
provocation, and particularly if they are attacked on the basis of 
``they might get a weapon but they haven't decided yet,'' there would 
be several results.
    One is that Iran would be pushed toward saying, ``We never thought 
we would want to build a weapon. Now that we have been attacked, of 
course we have to build a weapon to defend ourselves. We will now go 
ahead and do it come hell or high water.''
    The second is that Iran which enjoys about a 15-percent popularity 
in the Muslim world, would see that popularity skyrocket if it became 
the ``victim'' of a poorly justified and supported preemptive attack. 
Could we then stick with the sanctions program?
    Another question is an operational one: Would the United States or 
Israel be able to know what all the targets are and where they are? We 
have had some success in looking at the Iran program and knowing when 
they began their various parts of it and what they chose not to tell 
the world at the time. With the help of periodic inspections from the 
IAEA, we have had a pretty good idea of where Iran's nuclear sites are 
located. But would we know where all the targets are? I don't know the 
answer to that question. It remains hard to be pretty sure about what 
you don't know on these kinds of issues.
    On the other side, the retaliatory capability that Iran could 
exercise is large. They have influence with terrorist organizations 
that straddle Israel with large numbers of missiles.
    There is no question at all in my mind that they could operate in a 
terrorist way against ``soft'' American targets all around the world. 
Iran or surrogates could attack businesses, NGOs [non-governmental 
organizations], missionaries and virtually every American establishment 
in the region and beyond. And what would the U.S. Government be able to 
do to protect the huge American traveling public if, in fact, there 
were a very concerted and determined Iranian reaction in the form of 
continuing asymmetrical attacks against Americans? Launch a fuller 
scale attack against Iran?
    Even if the Iranians were to decide not to risk high profile 
attacks against American assets and interests so as not to escalate the 
U.S. retaliation, Iran has a network that could cause great damage to 
the U.S. presence in the region and worldwide that could help to avoid 
being traced directly to the Iranian Government.
    So let me leave the military option aside. It is not, in my view, 
something one would totally rule out in extremis if Iran actually 
decided to make a weapon and other options could not stop it. We could 
take the information on which we would base that decision to the 
international community. In the case of a clear obvious decision by 
Iran to develop a nuclear weapon, the United States would still have a 
serious problem in the United Nations Security Council getting support 
for multilateral military action against Iran, but there would be more 
justification.
    And if Israel were to attack on its own, the United States would 
share in the blame--the responsibility for the action--whatever role we 
actually played.
    In Israel there are some differences over some aspects of the 
military option. But I think there are no differences in Israel over 
the question of the serious problems an Iranian nuclear weapon would 
cause for them. But there are certainly differences about when and how 
the Israelis might act.
    The United States, at least, has the option, given the strength of 
its military forces, to respond to any later decision by Iran to go for 
a nuclear weapon. Under current circumstances, Iran, to carry out such 
a decision rapidly, would literally have to declare their intentions to 
the IAEA inspectors, or take steps to remove the enriched material that 
is now under IAEA safeguards from IAEA controls. So there is a 
significant challenge with the existing level of transparency of Iran's 
program were Iran to try to use stored material from the present civil 
program to build a weapon.
    The Israelis now believe that increasingly it will become harder 
for them to use military force to attack the Iranian program because 
the Iranians are beginning to enrich in the deep tunnels under the 
mountain at Qom/Fordow. Losing the capacity to take military action to 
stop that aspect of the Iranian program is worrying to Israel and might 
become a driver of action on the part of Israel to use military force.
    Finally, internally and politically in Israel, large numbers of 
people believe that Israel should not go alone; that it should only 
attack Iran with the United States in concert.
    These are critical questions that Prime Minister Netanyahu has to 
resolve: Can he bring all the members, or most of the members, of his 
security cabinet along with him? Not all of them are apparently now 
convinced that they should stand where Netanyahu stands on the issue of 
strikes against Iran, although I have to say I think a great majority 
of them are there.
    Within the last 6 months, the Israelis have changed, just in the 
normal rotation, the chiefs of all three of their intelligence services 
and of their military. The outgoing chiefs of the intelligence services 
and the military have spoken out forthrightly and politically about the 
dangers and problems with military action. The incoming chiefs, are in 
my view, less influential politically and maybe less capable of 
speaking out on their own, and it is not certain whether they share the 
notion that they would recommend an attack on Iran.
    The third option is sanctions. We have relied heavily on sanctions 
to move the question ahead. Indeed, in my view, sanctions have had a 
potentially useful effect. I have been concerned that we have not 
securely tied the sanctions to diplomacy. In the last few days, 
however, we are beginning to open the door to diplomacy with the 
President's AIPAC speech.
    But sanctions alone, without a decision on what we would take to 
the negotiating table on core issues such as Iran's enrichment program, 
has meant we have been hooked to a policy that has all pressure but no 
open door to negotiations and possible acceptable outcomes. The United 
States seems to be expecting this policy of sanctions and pressure will 
produce Iran in our hands, like the traditional Marxist ripe plum 
dropping from the tree, with almost any outcome we would dictate 
acceptable to Iran. That Iran in effect would finally accept all the 
U.S. demands. Of course, bringing Iran around to our way of thinking 
would be the easy way to bridge the gap between any permitted 
enrichment and no enrichment. But will it work? I think not.
    The fourth option is diplomacy. It has possibilities, but is not a 
certain solution.
    It appears to me that under present circumstances, we have to start 
with something the Iranians have proposed. They suggested some time ago 
they would stop enriching to 20 percent if the E3+3 would provide the 
20 percent fuel elements for the Tehran Research Reactor. Ending 20 
percent enrichment, which takes them halfway to the enrichment level 
for a bomb, not mathematically but in terms of the physics of 
enrichment, would be a helpful step.
    This small package to begin with could be enhanced in a second 
stage by two further steps. First, a cap on Iran's enrichment at 3.5 
percent or 5 percent as a follow-on to Iran agreeing to the cessation 
of enrichment at 20 percent. Iran would have no further need for 
material enriched above 5 percent if the needs of the TRR were assured 
by the E3+3.
    Second, we should consider asking Iran to turn over to us the 
material it has enriched to 20 percent at the time we deliver the fuel 
elements for the TRR reactor.
    Some freezing or easing of sanctions might be a fair quid pro quo 
for such a steps.
    That could be a good beginning.
    An important follow-on objective for subsequent stages of 
negotiation should be to expand significantly the inspections and 
monitoring of Iran's entire nuclear program. This would be a far more 
important goal of successful negotiations with Iran than to persist in 
our insistence that Iran suspend or freeze enrichment which it is 
highly unlikely not do and where the knowledge of how to enrich is now 
well established. Right now Iran is under a limited regime of 
inspections and monitoring. The United States and its allies ought to 
negotiate, with the IAEA's full participation, an agreement to improve, 
and indeed strengthen, the inspection process for the future. Iran has 
in the past accepted in principle a broader area of inspection under 
the Additional Protocol and related arrangements of the IAEA. In return 
for Iran agreeing to expanded inspections the United States would 
recognize Iran's right to enrich for civil purposes only.
    In addition there is a wider range of issues to be taken up with 
Iran.
    Regime change is certainly something the Iranian Supreme Leader is 
apparently deeply concerned about. If I were Supreme Leader and I 
thought somebody was trying to change my regime, I guess I would be 
concerned about it too.
    While some of our colleagues might imagine that regime change will 
solve our problems with Iran, I believe that remains farfetched and 
highly unlikely. Our past history at changing regimes has been pretty 
parlous. It is not something that we do very well and certainly not 
without many unanticipated consequences. Those Iranians who might 
replace the present regime seem no less attached to an Iranian nuclear 
program at least. And besides, in the longer term, in Iran it's the 
people of Iran--many of them very young--even under their unhappy 
system, that are going to decide how to deal with their regime and its 
future. Since Iranian beliefs in regard to the perceived U.S. regime 
change policy appear to stand in the way of progress in dealing with 
Iran's nuclear program, the United States will need to consider how and 
when that policy, or the Iranian perception of it, should come off the 
table.
    While the Iranians would congenitally be unwilling to believe any 
professions of faith in the direction of no regime change from the 
United States, there are some things that we might do in terms of 
actions that could begin to help them build some confidence. These 
might include making clear to them that we are not helping internal 
hostile activists in Iran who have carried a gun against them, and 
provide ways to communicate about actions that concern them. Secretary 
Clinton's recent public expression of concern about assassinations in 
Iran is a case in point. It would also help if we begin to consider 
freezing or relaxing the imposition of some sanctions in return for 
real progress in making their nuclear program more open and more fully 
inspected and in improving relations with Iran in other areas.
    Thus, as we look toward the coming negotiations on nuclear issues, 
the United States should try to find a way to improve both the 
atmosphere and make progress. Without mixing a broader agenda with Iran 
with those nuclear discussions, the United States could begin to speak 
with Iran about such issues as the future of Iraq and Afghanistan, 
drugs, and outstanding financial issues. We could deal with some of the 
many other bilateral issues between Iran and the United States.
    We have some interesting issues on our side that we want on the 
negotiating table as well: Iran's support for terrorist organizations 
and past Iranian intervention in the Middle East peace process--to name 
two.
    My recommendation is that we now take the sanctions pressure and 
turn it into a useful diplomatic tool to begin serious diplomatic 
negotiations with Iran. Such a new direction will require much care and 
management of the rhetoric to cause the diplomatic process move 
forward. The United States now has an opportunity to start in the forum 
of the E3+3. But sooner rather than later, direct talks between the 
United States and Iran will be necessary.
    We have much to do. There is once again a difficult challenge but 
an invaluable opportunity ahead of us.
    The President has brought us to where we are and the course has 
been hard. The path ahead is slippery and difficult. It will require 
the greatest care and leadership on the part of President Obama and 
Secretary Clinton. Thirty-two years of deep distrust, buttressed by 
misunderstanding, will not disappear overnight. The challenge for 
diplomacy on both sides will be to turn the old zero-sum question into 
a new era in which we try to extract some win-win results. Compromises 
that are painful on both sides will be needed. Hopefully, we can now 
find a way to reverse the perils of the past.
    An Iranian friend of mine who has played an important role in 
Iranian foreign policy over the years once told me that ``The 
historical record shows that every time we have been ready, you have 
not been, and every time you have been ready, we have not been.'' Maybe 
we can emerge from that position of the past to begin with some small 
things--that we can find the way to pull the curves mutual of interest 
together rather than have them continue to bend apart.

    The Chairman. Thank you very much, Mr. Secretary. Very 
constructive and important.
    General Cartwright.

STATEMENT OF GEN. JAMES E. CARTWRIGHT, FORMER VICE CHAIRMAN OF 
           THE JOINT CHIEFS OF STAFF, WASHINGTON, DC

    General Cartwright. Thank you, Mr. Chairman, Senator Lugar.
    I, like the Ambassador, kind of thought maybe I had already 
had my last hearing ever. So this is an honor, and I do 
appreciate the opportunity.
    I think also in the comments from the Ambassador, I would 
align with him pretty much totally. The only thing I would add 
as a caveat on the military options is that even though we may 
have an assessment, a personal assessment of those options, 
they should never be removed from the President as options.
    They have to stay on the table. And I just want to make 
sure that that is understood.
    I think, first, the construct here of risk. If Iran were to 
obtain a nuclear weapon, there are all sorts of 
prognostications out there about what could happen in the 
region from an arms race, the failure of extended deterrents. 
None of the options look good, and so this is a significant 
threat. It is one that we have to pay a lot of attention to. 
The good news is several administrations have and continue to 
do so.
    I also want to make sure people understand for the most 
part, historically, nation states, when they seek to have 
nuclear weapons, seek to have them as a shield, a guarantor of 
their sovereignty and their ability to remain sovereign.
    When you move that over to a surrogate, or a terrorist, 
that is where it becomes a sword. That is where the greatest 
threat is to an unpredictable act of violence.
    It is that nexus that people probably most worry about, at 
least in my community, associated with Iran gaining a nuclear 
weapon. It is not as much the idea that they are going to 
conduct some sort of attack. They would never win that kind of 
an exchange. It would be an existential threat on them, not on 
others for the most part.
    I also want to talk a little bit about the military 
activities that have occurred over the past few years in the 
region in an understanding of this threat. And I think the 
first thing to understand is that we have put in place and 
worked with the regional partners active and passive defenses.
    The simple things that keep terrorists from obtaining their 
objectives, someone who wants to attack you, but seemingly is 
undeterrable--you can take the objective away from the 
adversary by doing simple things like creating standoff 
distances from buildings and those types of activities.
    Those measures have been in progress of several years. The 
region has been, as we would say in the military, hardened to 
those types of threats, which you have to worry about 
particularly in order to maintain the viability of several of 
the options that the President might have.
    The second has been to have an active role in the region in 
exercises and working with the local armed forces in ensuring 
that they are capable of responding to any threat. On the 
active side of defenses, we have moved radars, missile defense 
capabilities into the region that are significant and would put 
into question any first strike or decapitating type of strike 
that Iran may wish to undertake.
    And then I think equally important is we have changed our 
posture in the region. Some of it has been the result of the 
ongoing conflicts in Iraq and Afghanistan, but our posture in 
the region is significant from the standpoint of military 
capability.
    I think the third issue that I would bring out is one of 
context. We are, in fact, a nation that has been at war for 
over 10 years now. We are a nation that has significant 
financial issues out there that we are working our way through.
    None of those should be interpreted by the Iranians as 
limiting our ability to go in there and do what we need to do. 
By the same token, if you look around the yard out there, you 
have the decisions on leadership in places like China, Russia, 
France, U.K., United States over this year. That is in some 
part going to affect diplomacy and discussions and probably 
has. And it may be interpreted by the Iranians as a window of 
opportunity, and so we should be careful as we move through 
that period.
    The last issue that I would like to cover just briefly here 
is the idea of how a weapon is developed and how they might go 
about that in the Iranian side. And generally, there are three 
stages here in the thought process.
    The first stage is that you have a limited number of 
scientists and technical people who believe that they have at 
least the essence of being able to build a device. That leads 
you through the reprocessing activities, the enrichment 
activities, and takes you to weaponization.
    In weaponization, again, a limited number of people trying 
to understand how to actually put a weapon together that will 
attain a critical mass and then react.
    The third activity is a delivery system. And in the 
delivery system, that is a very visible activity, much like an 
underground test, but it is a very visible activity that you 
can watch and we can watch develop. It takes a lot of 
capability to develop rockets that can, in fact, deliver over 
long distances, but also short distances.
    It also takes very precise entry and pointing and those 
types of activities which you can watch and takes several years 
to develop. The worry here is that things could interrupt the 
timeline, and the intelligence community has spoken often to 
this. But if outside assistance is gained through intelligence 
and intellectual capital on how to reprocess, that could 
accelerate the process.
    If there is someone who understands how to build a weapon, 
that accelerates the process. Many people look at weapons and 
think this is what it took us, the United States, to do. There 
is no reason to build a weapon exquisite--to the degree of 
exquisiteness that the United States has. You can develop a 
weapon in a much more simple format and do it much quicker. So 
we have to be careful about trying to equate our timelines with 
their timelines.
    And then I think the third issue here is one of if you have 
just a few scientists, that is a vulnerability. There is always 
the option, as we would say, to cut the head of the snake off 
and remove that capability.
    Once a country moves on, the second stage generally is to 
build a succession plan. In other words, depth in your 
scientists, depth in your engineers, the ability to have people 
come in behind if you lose somebody. I would say that is likely 
and quite possibly where the Iranians are right now.
    The third stage is called franchising. This is when you 
distribute the capability. You have indigenous capabilities, 
and they proliferate to more places than you can obviously 
find. And that becomes a very dangerous situation. That is a 
situation we and the Israelis are very worried about that we 
might be approaching and one that we have to watch very 
carefully in the assessments.
    I think in my mind the breakout is the transition between 
that second and third stage to where they start to proliferate 
intellectual capital and physical infrastructure. We are 
starting to see underground facilities and know about them. 
That is the type of indicators that we are worried about.
    And I will hold at that point and stand ready for your 
questions.
    The Chairman. Thanks. Thanks very much, General.
    Mr. Sadjadpour.

 STATEMENT OF KARIM SADJADPOUR, SENIOR ASSOCIATE, MIDDLE EAST 
     PROGRAM, CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE, 
                         WASHINGTON, DC

    Mr. Sadjadpour. Thank you, Chairman Kerry and Senator Lugar 
and members of the committee.
    It is really an honor to be back here with you. I am 
honored to be here alongside Ambassador Pickering and General 
Cartwright. I always admire my friend Ambassador Pickering's 
youthful optimism.
    Let me begin today with two quotes from Henry Kissinger, 
which I think really nicely frame our national policy 
discussion on Iran. The first quote is from Kissinger's book on 
21st century diplomacy, and he says, ``There are few nations in 
the world with whom the United States has more common interests 
and less reason to quarrel than Iran.''
    But several years later, Kissinger also said something 
which I think was quite brilliant in its simplicity. He said 
that Iran has to decide whether it is a nation or a cause. If 
it sees itself as a nation and it pursues its national 
interests, there is tremendous overlapping interests between 
the United States and Iran. But if Iran continues to see itself 
as a cause, in opposition to the United States, in opposition 
to Israel, we are going to continue to butt heads.
    And I would argue that the Obama administration, more than 
any United States administration since the 1979 Iranian 
revolution, tried to probe that question. And they tried to 
probe that question with a policy of unprecedented overtures to 
Iran, which I would argue went unreciprocated by the Iranian 
regime.
    And I think after a year of a policy of engagement, the 
Obama administration came to the realization that for Iran's 
leadership, anti-Americanism, enmity toward the United States, 
has in a way metastasized. Opposition toward the United States 
has become central to the identity of the Iranian regime, and 
this applies very much to the Iranian Supreme Leader Ali 
Khamenei.
    And so, I think from the vantage point of the Obama 
administration, they have concluded that it is very difficult 
to reach an accommodation with the regime in Tehran, which 
needs us as an adversary for their own ideological legitimacy.
    Now let me move to Iran's internal power dynamics. And I 
think for our intents and purposes, Iran has essentially become 
a one-party system, and that is the party of the Supreme 
Leader, Ali Khamenei, who rules in conjunction with the 
Revolutionary Guards who have really eclipsed the clergy in 
terms of their political and economic influence. And Khamenei 
is the one who is steering Iran's nuclear ship.
    And since he has been in power from 1989 onward, he has 
tried to preserve the status quo in Iran by avoiding 
transformative decisions. And increasingly with this 
unprecedented degree of international pressure, the 
international economic and political coercion, Khamenei's back 
is increasingly up against the wall.
    The Central Bank sanctions and actions by Swift have 
essentially cut Iran off from the global financial market. The 
looming EU oil embargo promises to decrease Iran--or Iran's 
exports to Europe, which is about 20 percent of their oil 
export market, stands to be dried up soon.
    But I haven't yet seen indications that this unprecedented 
pressure, as I said, has affected Khamenei's nuclear 
calculations. For a variety of reasons, Khamenei has long been 
averse to any type of compromise. He believes that when you are 
being pressured, compromise projects weakness and invites even 
more pressure.
    He believes deep down that United States policy toward Iran 
is not behavior change. It is regime change. And again, if he 
shows signs of compromise, the United State is going to 
increase the pressure.
    The lessons he has learned from contemporary history is 
that when Gaddafi gave up his nuclear program in 2006, he made 
himself vulnerable to the NATO intervention of 2011. The lesson 
he drew from the experience of Pakistan is that when Pakistan 
obtained a nuclear weapon and detonated a device, 
paradoxically, that alleviated the pressure against them and, 
in fact, turned outside pressure into outside engagement and 
incentive.
    So, for a variety of reasons, Khamenei is averse to 
compromise, and so far the unprecedented degree of 
international pressure, while impressive, hasn't affected his 
nuclear calculations. And I would have to say that the most 
important variable on this realm has been the price of oil.
    That when oil prices hover over $100, $110 a barrel, this 
really softens the blow of any type of international sanctions, 
no matter how expansive they are. So where does that leave us? 
Where does that leave U.S. policy options?
    I think if we are going to resolve this issue 
diplomatically, we do have to provide Iran an exit path. 
Pressure alone is not sufficient, and in that realm I very much 
welcome Ambassador Pickering's suggestions. I think they are 
constructive, and they are welcome, and I share Ambassador 
Pickering and General Cartwright's assessment that the risks of 
military action significantly outweigh the rewards of military 
action.
    That said, I think we need to be sober about the nature of 
the Iranian regime and sober about the interests of the Iranian 
regime and realistic about what both diplomacy and coercive 
diplomacy can really achieve here.
    I think dialogue and coercive diplomacy with Iran can slow 
down their nuclear program, their nuclear progress. It has 
slowed down their nuclear progress, but I don't think it can 
entirely stop their nuclear progress. I think dialogue can very 
importantly prevent our cold conflict with Iran from turning 
into a hot conflict with Iran by making it very clear to the 
Iranians what our precise redlines are.
    I think the outreach of the Obama administration has served 
to expose the fact that Iran is the intransigent actor in this 
equation, not the United States. That has really strengthened 
the breadth and the depth of our international alliances.
    But I would argue that as long as Iran's current Supreme 
Leader, Ali Khamenei, remains in power, I think the likelihood 
that Iran will be willing to make meaningful and binding 
compromises on this nuclear program is not very high. So, for 
that reason, I would argue that this is a conflict.
    Our conflict with Iran is a conflict which has to be 
managed. It is unlikely to be resolved. And I would say it is 
unlikely to be resolved until this regime is eventually forced 
to change under the weight of its own internal contradictions 
and economic malaise.
    As I said earlier, I think the most important determinant 
for this regime's future will be the price of oil. And in that 
respect, President Obama's speech at AIPAC I think is well 
worth hearing, that all the talk of military action tends to 
benefit Iran because it increases the risk premium of oil 
prices.
    When this change will happen in Iran is entirely 
unpredictable. But I think the events in the Arab world over 
the last 2 years are an important reminder of that old maxim 
from Trotsky, Trotsky's old maxim about dictatorships. He said 
while they rule, their collapse appears inconceivable, and 
after they have fallen, their collapse appeared inevitable.
    And I think the Iranian regime is at the crossroads of that 
maxim in that their short-term collapse and their long-term 
survival appear very much unlikely.
    I would argue that the most important role that we, the 
United States, can play in expediting change in Iran is to 
inhibit the Iranian regime's ability to control communication 
and to control information and, as Secretary Clinton said, tear 
down their electronic curtain. I agree with Senator Kerry that 
our approach up until now toward Iran has focused too 
exclusively on sanctions and hard power, and it hasn't focused 
enough on media and communications.
    If you look at what has transpired in the Arab world over 
the last 2 years, the role that satellite television and Al 
Jazeera played were enormous. And I think that we have the 
capacity to play a somewhat similar role in Iran with our Voice 
of America Persian language service, but so far it has really 
lagged behind.
    And I think there is an important role for Congress to play 
in all of this. The Voice of America Persian language service 
has the capacity to reach over 20 million Iranians, but so far 
we haven't really taken it seriously.
    And I will stop my comments there and look forward to your 
questions.
    Thank you.
    [The prepared statement of Mr. Sadjadpour follows:]

                 Prepared Statement of Karim Sadjadpour

    Ayatollah Ali Khamenei has never been a gambling man. Since 
becoming Iran's ``Supreme Leader'' in 1989, he's sought to preserve the 
status quo by eschewing transformative decisions. But as unprecedented 
political and economic pressures--including sanctions against Iran's 
Central Bank and a looming EU oil embargo--push his back against the 
wall, Khamenei increasingly has two paths to deliverance: a nuclear 
compromise, or a nuclear weapon. Each could be perilous for him, and 
the regime.
    Khamenei's aversion to compromise is well-established. He's long 
asserted that Washington's underlying goal in Tehran is not behavior 
change but regime change, and yielding to coercion would only project 
weakness and invite greater pressure from Washington. Just as 
Perestroika hastened the demise of the U.S.S.R., Khamenei believes that 
compromising on revolutionary ideals could destabilize the foundations 
of the Islamic Republic.
    Contemporary history has validated his worldview. In Khamenei's 
eyes, Libyan dictator Muammar Ghaddafi's abdication of his nuclear 
program in 2006 was precisely what made him vulnerable to the 2011 NATO 
intervention which ended his regime, and his life. Pakistan's 1998 
nuclear weapons tests, on the other hand, helped turn foreign pressure 
and sanctions into foreign engagement and incentives.
    While Khamenei may shun compromise, however, his path to a nuclear 
weapon would be a perilous one. To begin, overt signs of 
weaponization--including the expulsion of nuclear inspectors or the 
enriched of weapons-grade uranium--would likely trigger U.S. or Israeli 
military action. Unless Khamenei wants to provoke a military attack on 
Iran for domestic expediency--which is improbable but not implausible--
he will continue to favor a deliberate, incremental approach.
    Time, however, is arguably no longer on Khamenei's side. He must 
calculate whether his regime can sustain severe and escalating economic 
pressure for the duration of time it will take them to acquire a 
nuclear weapon. Despite media hype, if Tehran were to decide tomorrow 
that it wants to weaponize, it is, according to best estimates, at 
least 2 years away--and likely more--from the finish line.
    What's more, Khamenei must also take into account the fact that 
Iran's nuclear facilities have likely been penetrated by foreign 
intelligence agencies. Unforeseen roadblocks--including computer 
viruses, ``accidental'' explosions, mysterious assassinations, and 
defections--could likely set back Iran's nuclear clock even further.
    Faced with this seemingly binary choice, how will Khamenei decide?
    It has been correctly observed that the few instances in which Iran 
has compromised on revolutionary rigidity, or shown signs of 
conciliation vis-a-vis the United States, have been when the regime has 
perceived ``existential angst.''
    Today Iran is once again subject to enormous pressure, but two 
factors are different.
    First, in previous instances in which Iran felt a need to 
compromise, oil prices were below $25 barrel. Today they hover over 
four times that amount, which softens the blow of sanctions.
    Second, the instances in which Iran has compromised in the past 
were spearheaded not by the obstinate Khamenei, but by wily former 
president, Hashemi Rafsanjani. In the last few years, however, Khamenei 
has purged Rafsanjani and his more pragmatic acolytes from positions of 
authority and surrounded himself with sycophants who share his rigid 
worldview.
    That said, it's possible that in the near term Khamenei will 
calculate that the costs of continued intransigence are too high, and 
he will attempt a tactical and temporary compromise in order to stave 
off pressure and sew divisions within the P5+1, namely to peel China 
and Russia away from the United States and EU.
    There are currently no indications, however, to believe that 
international pressure will compel Khamenei to make the types of 
meaningful and binding compromises on its nuclear program--which would 
likely include capping enrichment at 5 percent, sending out stockpiles 
of low enriched uranium (LEU), and agreeing to an intrusive inspections 
regime--that would reassure the United States and placate Israel.
    It's oft asserted that in order to persuade Tehran not to pursue a 
nuclear weapon, Washington must reassure Khamenei that the United 
States merely seeks a change in Iranian behavior, not a change of the 
Iranian regime. While this makes sense in theory, in practice it's 
complicated by Khamenei's deep-seated conviction that U.S. designs to 
overthrow the Islamic Republic hinge not on military invasion, but on 
cultural and political subversion intended to foment a soft or 
``velvet'' revolution from within. The following Khamenei speech on 
state television, in 2005, is both representative and revealing of his 
world view:

          More than Iran's enemies need artillery and guns, they need 
        to spread cultural values that lead to moral corruption . . . I 
        recently read in the news that a senior official in an 
        important American political center, said: ``Instead of bombs, 
        send them miniskirts.'' He is right. If they arouse sexual 
        desires in any given country, if they spread unrestrained 
        mixing of men and women, and if they lead youth to behavior to 
        which they are naturally inclined by instincts, there will no 
        longer be any need for artillery and guns against that nation.

    Khamenei's vast collection of writings and speeches make clear that 
he fears American cultural WMDs and soft power more than bunker busters 
and aircraft carriers. In other words, Tehran is threatened not only by 
what America does, but what America represents. For this reason 
Khamenei has asserted that ``the conflict and confrontation [between 
Washington and Tehran] is something natural and unavoidable.'' Herein 
lays our policy conundrum: No nuclear deal with Tehran can be made 
without Khamenei, but it appears almost equally unlikely that any deal 
can be made with him.
    Where does this leave us?
    Shortly before his death, the great American diplomat and cold war 
scholar, George Kennan--reflecting on 70 years of experience in foreign 
affairs--observed that ``Whenever you have a possibility of going in 
two ways, either for peace or for war, for peaceful methods or for 
military methods, in the present age there is a strong prejudice for 
the peaceful ones. War seldom ever leads to good results.''
    We should keep Kennan's words in mind while at the same time being 
sober about the nature of the regime in Tehran, and the challenges it 
poses. Realistically, the utility of continued dialogue and 
negotiations will not be to resolve our differences with Tehran, but to 
prevent our cold conflict from turning hot. The Obama administration's 
unprecedented and unreciprocated overtures to Iran also help expose the 
fact--both to the outside world and the Iranian people--that Tehran is 
the intransigent actor in this equation, not Washington. This has 
served to strengthen both the breadth and the depth of our 
international coalition.
    The goal of coercive diplomacy should be to significantly slow 
Iran's nuclear progress, and contain their regional political 
influence, until the regime is eventually forced to change--or is 
changed--under the weight of its own internal contradictions and 
economic malaise. When this might happen is entirely unpredictable, but 
the events in the Arab world over the last 2 years are a reminder of 
Trotsky's old maxim about dictatorships: ``While they rule their 
collapse appears inconceivable; after they've fallen their collapse 
appeared inevitable.''

    The Chairman. Well, thank you very much, Mr. Sadjadpour. It 
was very interesting.
    Everybody, I think, has made a significant and interesting 
contribution here. You may be the first witness in 26 years to 
have quoted Trotsky before this committee.
    [Laughter.]
    But it was a pretty astute observation, without doubt.
    Let me just begin, if I can, I want to come back to you, 
Mr. Sadjadpour, but I want to set it up this way.
    Ambassador Pickering, you said there were three options, 
and your first option was this potential of doing nothing, and 
you then go forward and they do what they want to do and they 
break out. I don't think--I am not sure that is, in fact, an 
option under any circumstance because Israel isn't going to let 
it be an option.
    And that is really the quandary that we are in, that there 
really are only two options. Either there is going to be 
military action because one country is going to make a judgment 
about where they think the rush to a weapon will occur. And 
based on that, they will self-help, regardless of whether we 
are there.
    And the other option is that that doesn't take place 
because Iran, hopefully in its wisdom, sees that that takes 
everybody to a bad place, including them, and that there is a 
much better road to go down. And therefore, there is something 
along the lines of an agreement that you have defined or some 
other agreement.
    Now I say that because I want to go directly thereforth. 
There are those two poles that I think probably you would 
agree, Mr. Sadjadpour, those are the two poles. If that is true 
then, you made the judgment a moment ago in your testimony. You 
said there is no evidence that Khamenei is going to see things 
differently or move in a different direction.
    How do you say that? Do you know whether there is an 
internal debate? Do you know why then are they going to go to 
these talks? Does that mean you are predicting these talks are 
a mere delay process and destined to fail, or is something 
happening that maybe none of us are aware of at this point?
    Mr. Sadjadpour. I think in the near term what the Iranians 
will attempt with the talks is to offer some tactical or 
potential cosmetic gesture of conciliation in order to try to 
stave off pressure and create so rifts within the P5+1 to try 
to peel China and Russia away from the United States and 
Europe. But again, there are no indications to believe that 
Iran is prepared to make the types of meaningful and binding 
compromises which Ambassador Pickering has suggested.
    And you know, again, I think that Khamenei's current 
dilemma is that, on one hand, he is averse to compromise 
because he believes that the United States endgame is not 
simply to change Iran's nuclear ambitions, but to change the 
Iranian regime. On the other hand, I think the path for him 
toward a nuclear weapon is equally perilous. It is not that 
they are months away. They are years away. And if, indeed, he 
pursues that path, he has to assume that it is going to trigger 
some type of military action.
    The Chairman. So what is your advice to us with respect to 
this question of their perceptions? I don't disagree with you. 
I think there is great fear in certain quarters that our 
primary goal is not the nuclear plan at all. It is, rather, the 
regime change. And we have to deal with that in any kind of 
dialogue or any dealings.
    But given the speech that you quote in your written 
testimony that the Supreme Leader gave in 2005 regarding bombs 
versus miniskirts and so forth, it really poses a major 
challenge to us to try to get over that inherent deep 
suspicion. What is your counsel?
    Mr. Sadjadpour. I wish I could be more optimistic in this 
sense. But my perception of the Supreme Leader is that his 
cynicism toward the United States is cloaked in ideology, but 
it is driven by self-preservation, meaning he is shrewd enough 
to appreciate the fact that were there to be an opening with 
the United States, it could bring about unpredictable reforms 
and open up outside phenomena like globalization which could 
well sweep him aside.
    So I compare him in some ways to the late Kim Jong-il or 
Bashar al-Assad in the sense that I think he surely appreciates 
the fact that he can rule over a closed system, but not an open 
system.
    The Chairman. But he is a smart man, a very, very smart man 
and very clearly driven by religious foundation. It would seem 
to me that that would also be very compelling to him with 
respect to the alternatives, which are to find themselves even 
more isolated, more punitive set of sanctions, greater threats 
in some ways to a regime, and ultimately the potential of a 
very concerted military action.
    If everybody's efforts are exhausted and there isn't 
sufficient verification, sufficient compliance, it may not be 
Israel acting alone at that point.
    Mr. Sadjadpour. Well, you know, he has been ruling a system 
which has been enduring sanctions and punitive measures and 
threats for the last few decades. And the economic welfare of 
the Iranian priority has never been his top priority or the 
regime's top priority.
    And at the moment, I would say this. That Khamenei, what is 
paramount for him is the preservation of the system, to 
preserve the status quo. But I would say at the moment, he 
doesn't feel existential angst. The pressure is significant. 
The threats of military action, I am sure, he takes seriously. 
But so far with these soaring oil prices, they have managed to 
muddle through.
    And I think it is plausible, within the realm of 
possibilities, that he calculates that a limited Israeli 
military strike on Iran's nuclear facilities could be net 
positive for the regime because they would--it could 
resuscitate revolutionary fervor and, in fact, prolong the 
shelf life of the regime. So I think those are his calculations 
at the moment.
    The Chairman. Well, hopefully, I mean, I understand those 
calculations. I think there are some much brighter and more 
significant options available, and the question is obviously 
whether or not, over the course of these next weeks, it will be 
possible for them to see that and for people to reach what Tom 
Pickering has said is sort of the confluence of interests here. 
It seems to me there are real possibilities there.
    But I am going to just stop there.
    Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman.
    Just following up this thought of existential angst, you 
have mentioned one specific idea that could be used to reach 
out to the Iranian people, and that is the Voice of America 
Persian language service. Now if that was to be beefed up, and 
I gather from your testimony that you feel not much is 
happening there, and it is worth our committee taking a look 
into, what would the messages of our broadcasts be?
    In other words, if we were to try to improve our image 
among the Iranian people, the 20 million listeners or what have 
you, what would we say?
    Mr. Sadjadpour. It is a great question. What I would say is 
that the conclusion I have reached about Voice of America is 
that, like the Iranian regime, it is going to be very difficult 
to reform, and it is something which we have to take outside 
the confines of the U.S. Government. And there should be a 
public-private partnership in the same way that BBC works.
    And it is notable that BBC Persian has been in existence 
for about 2\1/2\ years, and in that short period, it has 
already managed to significantly eclipse Voice of America. So I 
think that we can do much better. In this country, we have a 
fantastic track record on doing media. But again, I think doing 
it within the U.S. Government is difficult.
    And in terms of what the message should be, I think what we 
simply can do is provide Iranians information about United 
States policy, about what is happening in their own country, 
inhibit the regime's ability to control the information they 
receive, and inhibit the regime's ability to prevent Iranians 
from communicating with the outside world and with one another.
    So I think that, as Secretary Clinton described, the 
electronic curtain is a very apt term.
    Senator Lugar. Well, let us say they do begin to 
communicate. Are we hopeful then that the Iranian public or 
elements of it, young people or whoever, come out into the 
streets, that they decide simply that they have had enough and 
this becomes irrepressible? What is the scenario for making any 
difference to Khamenei with regard to his situation?
    Mr. Sadjadpour. Well, as my colleague Tom Carruthers says, 
it is always impossible to predict popular uprisings because it 
is not social sciences. It is psychology, and we can't predict 
when these psychological tipping points are going to happen.
    I would say this. If you look at the collapse of the 
Mubarak regime and the Ben Ali regime in Tunisia, it seemed to 
me there were three important factors--corruption, economic 
malaise, and repression. And if you look at objective metrics, 
Iran ranks higher than Mubarak's Egypt and Ben Ali's Tunisia in 
all three categories.
    So the discontent certainly exists within Iran, but I would 
argue that the Iranian opposition, in contrast to the Arab 
opposition movements, has reached an impasse and that they have 
recognized that they can't reform the system from within. But 
because of the fact that they have already suffered one 
disillusioning revolution, they don't have the same type of 
revolutionary romanticism which exists in the Arab world. So 
they have revolutionary ends, but they are not willing to 
pursue revolutionary means.
    That said, again, I think it would be useful for us to be 
able to communicate to the Iranian people what our policy is 
toward their nuclear program. Because at the moment, the only 
information they hear is from their leadership, which says that 
the United States and imperial powers are trying to deprive 
Iran of this wonderfully fantastic technology, which would 
totally change the Iranian economy, when the reality is, in 
fact, much different.
    Senator Lugar Ambassador Pickering, if, in fact, Voice of 
America Persian was revived and these messages were getting to 
the public, granted that, as Karim has pointed out, the people 
might not come out into the streets. Perhaps not quite ready 
for that.
    But how does that affect your point four of this diplomacy 
situation if all of this is going on as we have revived 
something very different and are obviously going after Iranian 
public opinion with the thought of potential regime change?
    Ambassador Pickering. Senator, it is a very interesting and 
important point. First, I begin with the notion that I have 
clearly no objection and, indeed, some reason to support the 
idea that the people of Iran should know much more clearly what 
is going on.
    I went there as a tourist in 2004, and I was amazed at the 
number of people who came up to me on the street as an apparent 
foreigner and said, ``Why? What are the real problems between 
the U.S. and Iran?'' They were totally isolated. And I think 
that is a significant point.
    Second, it would help to reinforce a point that I would 
like to differ just a little bit from Karim on, that the 
Supreme Leader is so implacably dedicated against any deal, so 
frightened of any deal that he won't come. I think that we only 
have to look back to 2002 when my good friend, Jim Dobbins, was 
negotiating, with the help of Iran, the new Government for 
Afghanistan.
    And at the end of that, he famously writes in his book he 
got a long message from Iran saying we would now like to 
explore other options for negotiations with the United States. 
He brought it back, and it died in the inbox somewhere, or it 
died in somebody's circular file, or it died with somebody's 
ideology, whatever it was. But it didn't get anywhere.
    So my sense is, from Iranian friends who have worked with 
the Supreme Leader, that he is suspicious. He is, indeed, as 
Karim said so correctly, upset by the notion that the only U.S. 
policy is really this regime change policy and that in the end, 
it will do him in.
    But nevertheless, throughout the period, he apparently has 
said you guys who want to deal with America are wrong and you 
won't succeed, and they will end up confirming that to you. But 
go ahead and try. And we have a number of cases where they went 
ahead and tried, a number of cases where it didn't succeed. 
Not, I think, entirely all on the part of Iran, although they 
certainly played a significant role in making the negotiations 
very difficult.
    So my hope is, to get back to your original question, that 
with more enlightenment on the part of the people of Iran they 
can support a negotiating process that will give them 
confidence that, in effect, with good behavior on Iran's part, 
with an ability to come together on these issues, there will be 
a much better option than either bombing or continued unlimited 
repression of one kind or another, which has its own 
consequences.
    Senator Lugar. Yes?
    General Cartwright. Could I just offer just a quick 
comment? The only thing that I would add to this is that 
broadcasting to the Iranian people is like telling them what to 
think. What we really need to do is to engender an internal 
dialogue and the tools to do that, which allow both 
collaboration internally and exposure to the outside.
    So the work that many of the agencies have undertaken is to 
try to get things like the Internet opened up because the 
maldistribution of wealth that is occurring as a result of 
these sanctions is going to put pressure on the system.
    Senator Lugar. Thank you.
    The Chairman. Senator Shahee.
    Senator Shaheen. Thank you very much.
    Thank you, gentlemen, for being here.
    There is the prospect for a new round of negotiations.
    I was in Brussels over the weekend at the Brussels forum, 
and Lady Cathy Ashton was there talking about what we might 
look for as an indication that the Iranians might really be 
serious about those negotiations. And I wonder if, I guess, 
Ambassador Pickering, I would ask you first what you think we 
ought to be looking for to determine whether the Iranians are 
really serious?
    Ambassador Pickering. Thank you, Senator.
    I think it is the most important question. My own sense, 
and I spoke briefly about this in my presentation, is that we 
ought to take a proposal they put on the table, which I believe 
happens to be in our interest, which is that they would stop 
producing material at 20 percent. Which at least in the physics 
of enrichment is a long way up the line, a lot further than 3.5 
percent.
    And in return, we would provide the fuel elements to 
continue to allow them to operate a reactor that makes medical 
isotopes, as civilian as you can get. And it seems to me that 
is a test case, and we ought to be able to try to be creative 
and move ahead with that test case.
    The second piece is, overall, their proposals have been 
they would like to run a civilian program. We have plenty of 
good reasons for believing that in the past they have flirted 
with nuclear weapons and done things that have taken them out 
of the purely civil. But we also know from our own intelligence 
that in 2003, apparently for reasons that we don't know, but we 
can imagine, they stopped that bomb program.
    And so, we ought to take them to a position to do 
everything we can to put that so solidly in concrete they 
cannot move beyond it on the one hand and put in place the kind 
of inspection mechanisms, broaden the IAEA mandate, work with 
the IAEA to do that.
    Buttress that with our own sources of information so that, 
in fact, we create as much of a deterrent as we can against 
their getting away from the firewall that I talked about 
earlier, that we would hopefully put in place through 
negotiations.
    Now, look, nobody knows whether negotiations will succeed 
or not. I don't share Karim's notion that the situation is so 
bad that it is almost feckless to try. And he and I both agree, 
and he said so here, that we ought to try.
    Indeed, if we are contemplating other options like the use 
of force, I certainly think we ought to exhaust diplomacy 
before we get there. We have been there before, Senator, as you 
know, and it hasn't treated us or the region or, indeed, others 
very well to jump over those particular possibilities, if I can 
phrase them that way.
    Senator Shaheen. And can I get you to talk a little bit 
more about the impediments to being able to accomplish that 
kind of a negotiation?
    Ambassador Pickering. Sure. I think that we would all agree 
that Iran has a very intensive way of negotiating. It may have 
learned, unfortunately, lessons from North Korea that has its 
own way. I suppose that if you have ever had the experience of 
raising children to the age of 2 years, you get some sense of 
how and in what way that process operates at a perhaps slightly 
more elemental level of psychology.
    They are extremely hard bargainers. They have grown up, 
after all, in a society where bargaining is a science, not just 
an art form. And so, we have those questions already.
    They may have internal differences. They may seek over a 
period of time, as I believe they did when they first agreed to 
the arrangement in October 2009, that, in fact, they would turn 
over to us 1,200 kilograms of low-enriched uranium in return 
for the fuel elements I am now advocating we provide for the 
20-percent material.
    But nevertheless, that failed. It failed in part because I 
believe there was serious internal disagreement. The Supreme 
Leader did not really want President Ahmadinejad to claim some 
credit for this. He didn't trust that. He was concerned.
    So we have had problems on both sides in being able, if I 
could put it that way, to manage the negotiating process.
    And I, without digressing too much, see, in fact, 
arrangements here on the Hill which I deeply am opposed to to 
try to impose restrictions on the President with respect to 
what he can negotiate, rather than to follow the normal rule in 
which you are hopefully fully consulted but then have the 
opportunity to up-or-down approve an agreement that the 
executive branch brings to you as a result of our 
constitutional and traditional processes in that regard.
    Senator Shaheen. Thank you.
    I will tell you what my pediatrician said about negotiating 
with my 2-year-old, and that was they are totally self-
absorbed.
    [Laughter.]
    Ambassador Pickering. I couldn't know of a wiser statement.
    Senator Shaheen. Karim, you talked about the possible 
belief on the Iranian part that an Israeli strike could be a 
net positive for the regime. Do you think the Israelis have 
taken that into their considerations, and how do they react to 
that?
    Mr. Sadjadpour. That is a great question. Just quickly on 
the issue of negotiations. I always say that in America, our 
negotiating culture is getting to ``yes.'' In Iran, the 
negotiating culture is staying on ``maybe.''
    But with regards to an Israeli strike and whether the 
Israelis have taken that into consideration, my sense is that 
they don't take that argument very seriously for two reasons. I 
think there is two schools of thought.
    One school of thought, and I think this is probably 
reflective of Prime Minister Netanyahu, says that a strike on 
Iran, a military strike on their nuclear facilities could 
actually expedite the demise of the Iranian regime. And he has 
said this before in interviews, and you may argue that he has 
motivated biases to believe that.
    The second school of thought among those in Israel who 
would support military action is to say that that is OK, that 
we will set them back 3, 4 years, and it may entrench the 
regime. It may not. But this is an existential threat to us, 
and so we can't afford to take this lightly. And if need be, we 
will do it again 3 to 4 years later. It is like mowing the lawn 
is sometimes an analogy that they use.
    So my sense is that what it would do to Iran's internal 
politics hasn't been a first-tier consideration for them.
    Senator Shaheen. Thank you. My time is up.
    The Chairman. Thank you very much.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    Great hearing, and very much appreciated. And outstanding 
witnesses. Thank you very much.
    And to Mr. Pickering, Ambassador Pickering, the isotope 
offer, if you will, that you are talking about, that is an old 
offer. Is there any reason to believe that today that still has 
a degree of life?
    Ambassador Pickering. Senator, that is an offer that I 
think is only a few months old, and that may be in terms of the 
time scale of Iran an old offer. But I think that it has been 
on the table not so long that it would be dead.
    Now there are some considerations here that we need to keep 
in mind. The Iranians have produced one fuel element at 20 
percent, which they are now testing in the reactor. My friends 
who are much more expert than I in this say that no one, even 
the Iranians, would be sufficiently confident enough without a 
long test of that one fuel element to feel they have now 
achieved independence with respect to the operation of that 
reactor. So I think the dependency piece is still there.
    There are also, obviously, other important things we can 
do. They had talked about building three or four more such 
reactors to make medical isotopes. My own view is that there is 
probably technology that would be available that could make the 
one reactor they have much more efficient at producing medical 
isotopes.
    So there are things here that I think we can turn into win/
win, even if, in fact, the basic proposal might be 
complexified, if I could put it that way, by the Iranian 
negotiating reaction. And we need to think down the road about 
that.
    Nevertheless, it is still their proposal. It is giving them 
what they have asked for, and I believe in that sense, it is 
very much in the U.S. interests. I believe it is in Israel's 
interest not to have any more 20-percent material, not to have 
any more material above 3.5 percent produced as a place to 
start. There are gains in both directions.
    Senator Corker. Thank you.
    General Cartwright, I certainly want to thank you for all 
the time you spent with me during the Libyan issue, and I 
really appreciate it. I know you had a lot going on, and thank 
you for your service.
    And speaking of that, what would the leadership of Iran 
take away from Libya? I know that has been alluded to, but we 
had diplomatic relations. They did do away with their weapons 
of mass destruction, and we did, in fact, implement regime 
changes. So what did they learn from this?
    General Cartwright. My sense, Senator, is combined with 
Libya, the Arab Spring activities in the region, there is a 
sense that they are emboldened more to need some sort of a 
guarantor of their sovereignty and that internal the dialogue 
is such to make that even more pronounced that see what has 
happened--see what happens if we go along with this path of 
denuclearizing, see what happens if we give too much of a voice 
to the populace.
    I mean, it is an internal dialogue. That is why I was 
pushing on making sure that if we actually embrace trying to 
give the Iranian people a way to communicate, it is probably 
going to be more efficient than just Voice of America. In other 
words, having them be able to talk amongst themselves and with 
people external is probably a more powerful weapon than just 
broadcasting to them.
    But they have looked at that lesson. I can't tell you what 
is in their mind, but we have heard reporting along the lines--
see what happens if you go down this path?
    Senator Corker. And just for what it is worth, you know, to 
me, that was a problem with our involvement there and expressed 
it at the time, and mostly what the outcome ends up being. You 
talked about the difference between shield and sword, and 
obviously, the shield component, especially in light of what 
you just said, is, you would think, of paramount importance, 
especially when you only have a handful of weapons at most.
    What is it in their psychology that would move them along 
toward the franchise component where they would actually allow 
those weapons to be in terrorist hands? And this is way down 
the road, I understand. But why would that be in their self-
interest in any way?
    General Cartwright. This is again supposition, sir. 
Certainly trying to guess what the future is going to bring 
here. But the dialogue that you would fear and the thought 
process that you would fear is one that the acknowledgment that 
even if they have a dozen of these weapons, there is no way to 
win a nuclear exchange. But these weapons in the hands of a 
surrogate, even at the onesie or twosie level, become items 
that create blackmail scenarios all around the world.
    And then what you are trying to do is undermine confidence. 
The thought process that one of these could emerge in a city 
someplace in the world is a very destabilizing activity and 
makes the weapon far more powerful than exploding it.
    Senator Corker. You mentioned the opportunity Iran may see 
this year because of all the leadership changes that are taking 
place around the world. I didn't exactly understand what that 
opportunity might be for them.
    General Cartwright. It is a double-edged sword for them, 
actually. On one side, they could see leadership changes that 
would favor their position. On the other side, they could see 
leadership changes that potentially would change the position 
of Russia or China in the P5. They could see the lack of will 
potentially of nations to want to go to armed conflict in a 
year of----
    Senator Corker. During that period of time?
    General Cartwright. Yes, sir.
    Senator Corker. But I still don't understand--I understand 
they don't know what the outcomes of these elections might be, 
and you don't know whether they would be good or bad for them. 
None of us know that here.
    I don't understand what actions, though, that would cause 
them internally to possibly take.
    General Cartwright. Well, a potential scenario is to 
declare--to declare either the dash or just to declare that 
they are going to test or have tested. We have no way of 
proving or disproving that action, and the declaration, in and 
of itself, is extremely destabilizing.
    Senator Corker. Is there, speaking of declaring and not 
declaring, do you sense--and our intelligence community, 
obviously, has come under much criticism because of the Iraq 
issue. Do you sense--and you know, I had a classified briefing 
yesterday at length. I didn't really learn anything that I 
haven't read multiple times in the Washington Post and the New 
York Times.
    And is there a sense from your perspective that because of 
what happened with Iraq that the intelligence community is 
almost over-concerned about saying anything that might be 
provocative, and I mean, is there a hesitancy on their part to 
really lay out more provocative situations as it relates to 
Iran?
    General Cartwright. I have not seen hesitancy on their part 
to have a dialogue about the ``what if'' side of it. But as 
they lay down, they want to make sure whoever reads the 
documents has a clear view of what they actually know, not what 
the supposition side of it is.
    In conversation, in briefings, they will often get into 
here is potential turns, potential misunderstandings of how we 
are interpreting the data. I think more what is happening here 
with our intelligence community is they are trying to be very 
precise about what they actually know and don't know and then 
have a dialogue after that and document that.
    Senator Corker. Just one last question, Mr. Chairman.
    Mr. Sadjadpour, what is our policy as it relates to Iran? 
Is it regime change, or is it not? I mean, I think that would 
be an interesting thing for me to even know.
    Mr. Sadjadpour. I think our policy at the moment is to try 
to subject Iran to enough political and economic pressure to 
compel it to moderate its nuclear program, to make, as I said, 
meaningful and binding compromises on its nuclear program.
    I think in the last year or so, many folks in the Obama 
administration have come to the realization that as long as 
Ayatollah Khamenei remains Supreme Leader, it is going to be 
very difficult to get Iran to make those meaningful and binding 
compromises. So, in some way, Khamenei's perception that U.S. 
policy is regime change, not behavior change, is becoming a 
self-fulfilling prophecy.
    The Chairman. Thank you very much.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Thank you all for your testimony.
    Ambassador Pickering, let me ask you, we originally had 
some resistance to the sanctions that we approved in the 
Congress last December. And but for those sanctions and the 
fact that we have a great success moving in the direction of 
multilateralism as it relate to those sanctions, which are 
always more desirable, would we have any traction with the 
Iranians at the end of the day?
    Ambassador Pickering. Senator, if you have gained the 
impression that I was against the sanctions, that is not the 
impression I intended to leave. I intended to say that it is 
extremely important we use the sanctions in a creative way to 
move toward diplomacy, and I think that has been the general 
view of the three of us here.
    Senator Menendez. It still begs my question. I didn't 
suggest that was your view. I was asking, but for the 
sanctions, would we have any leverage going into a process to 
get the Iranians to engage in a discussion that would hopefully 
have this solved without a military process?
    Ambassador Pickering. Yes. I think that we have just had a 
discussion with one of your members about regime change, does 
that have an effect? Some may argue that pressures that look 
like regime change may have a positive effect in moving Iran 
toward a deal. Others may argue, as I think Mr. Sadjadpour, 
although he is best able to speak for himself, that this is 
having a negative reaction on the Supreme Leader's willingness 
to make a decision.
    We have had lots of discussion of all options on the table. 
There is only one reason for me to believe that all options 
should be on the table because it has initially and very 
importantly a potentially positive effect on Iran's willingness 
to look at a negotiating option, and we have discussed some of 
that in detail. So it isn't sanctions alone, but the panoply of 
efforts.
    We need to be careful, however, in calculating that, that 
as we move with those efforts, we do not drive the Iranians in 
a direction that Mr. Sadjadpour signaled that we would not wish 
to see them go about trying to find a solution to this problem 
and, hopefully, a solution to this problem short of what I 
consider to be the highly risky, very low advantage military 
option.
    Senator Menendez. General Cartwright, you have said in the 
past, and correct me if I am mistaken, ``if they,'' meaning the 
Iranians, ``have the intent, all the weapons in the world are 
not going to change that.'' Not change their intent, but do all 
the weapons in the world change their ability to achieve 
nuclear weaponry?
    General Cartwright. My general belief is that a limited 
strike would--and we have had that conversation here today--
would, one, probably steel their resolve. In other words, make 
them more resolved to move forward. You never know for sure 
because of all of the other things that are going on.
    But as the franchising of this enterprise, nuclear 
enterprise occurs, the effect of bombing and the ability of 
bombing to actually find all of the targets becomes 
problematic, No. 1. And No. 2, the intellectual capital now has 
been so diffused that should they continue to intend, the 
ability to rebuild is actually well within their power.
    And so, it is not a question of trying to eliminate some 
sort of thought process by kinetic energy. That usually tends 
to take you in the opposite direction. What we want is for the 
Iranian people to come to the judgment on their own through a 
variety of meanings, sanctions, the threat of force 
potentially.
    My worry is that, like in Iraq and Afghanistan, the bombing 
itself is not going to change their mind.
    Senator Menendez. You said in your testimony that Iran 
doesn't need to make a U.S.-style weapon. What is your estimate 
of how long it would take if Iran decides to break out and to 
have them enrich uranium to 90 percent and make a crude nuclear 
weapon?
    General Cartwright. Yes. It would depend on whether they 
were getting any assistance in that area from somebody who has 
worked in this area and built a weapon themselves. But assuming 
that they haven't, well within a year they would be able to do 
something like that. That is after they have gotten the 
reprocessed material, not all the way to weapons grade in our 
construct.
    Senator Menendez. Mr. Sadjadpour, this conversation about 
the thought process of Ayatollah Khamenei, if he believes that 
regime change is our goal, then he is less likely, I would 
assume, to think that there is any process worthy of a 
negotiation.
    If he thinks, as you described it as behavior change, that 
we simply do not believe that for the world and our own 
national security interests and certainly in the region that 
having nuclear weapons in a country that has so much oil and 
obviously doesn't need it for domestic power is our goal, does 
his thinking change? Is there some way to persuade that it is 
not regime change, but simply behavior?
    Mr. Sadjadpour. The challenge with Khamenei is that he 
responds to both incentives and overtures and disincentives and 
pressure in the same way. When President Obama tried to reach 
out, and we can go into more detail about some of the things 
which President Obama did, which haven't really been 
publicized--for example, the private letters which President 
Obama sent to Ayatollah Khamenei, two private letters--Khamenei 
was very cynical. He said that this is an iron fist with a 
velvet glove on it.
    And so, he in a way is paralyzed with mistrust, and again, 
I think that it is expedient for him to project this cynicism 
because he recognizes that an opening with the United States--I 
would argue that there are three symbolic pillars left of the 
Islamic Republic. It is enmity toward the United States, enmity 
toward Israel, and the veil, the hijab for women. And if he 
gets rid of one of those pillars, it could really shake the 
foundations of the system.
    So, in theory, it makes a lot of sense to say, OK, Iran is 
pursuing a nuclear weapon because of a sense of insecurity vis-
a-vis the United States. So let us simply eliminate that sense 
of insecurity in order to curtail their nuclear weapons 
ambitions.
    But as I said in my testimony, the reality is that what 
Khamenei obsesses about is not U.S. hard power or U.S. military 
action, it is U.S. soft power and this idea of a soft or velvet 
revolution. And I don't think, realistically, we can reassure 
him that we are not pursuing that path because what it would 
take is for us to cease saying anything about Iranian human 
rights abuses, which isn't likely. It would require us to shut 
down Voice of America and Radio Farda. I even think it would 
take us, it would take us shutting down Hollywood before he 
thinks that----
    Senator Menendez. Well, that is not going to happen.
    Mr. Sadjadpour. That is not going to happen.
    Senator Menendez. Let me ask you one final question. Is 
anybody concerned about, OK, so Iran gets nuclear weapons. Is 
anybody concerned about what Turkey and Syria do in the region? 
How is it that they say to themselves, ``I can live and secure 
my people without my own nuclear power?''
    Ambassador Pickering. I addressed that in my opening 
remarks, Senator, and I think it is very clear that, in effect, 
we have had this renewal of sudden interest on the part of a 
number of states in the region, United Arab Emirates for one, 
and others in ``a civil nuclear program.''
    Many of us have felt for years that if Iran proliferates, 
there will be enormous pressure on Turkey, Saudi Arabia, Egypt, 
United Arab Emirates, and others to move in that direction. And 
indeed, there are some feelings they have already thought well 
enough about that to be able to perhaps make that kind of move.
    And that kind of proliferation adds significantly to the 
instability that is at the essence of the nonproliferation 
argument. The more people who have these, the more chance you 
have for use by accident, miscalculation, or even design. The 
franchise process may be there, although I myself believe very 
strongly that everyone who gets a weapon's first instinct is to 
make sure nobody else gets it.
    And their second instinct is to wonder what are they really 
going to use this thing for? And to some extent, I think that 
is an argument against putting weapons out to franchisees, who 
are not McDonald's employees but are likely in their own way, 
once they have one, unless you have some kind of remote control 
permissive action link to control use of that weapon, going to 
use it for their own purposes. So franchising is not an 
absolutely certainly controlled process, and we need to be 
concerned about proliferation on its own to other nation states 
as well as the franchise problem.
    And my sense is that proliferation in the region is going 
to be self-stimulating. If you just look at the history, India 
says it got a weapon because China had a weapon. Pakistan said 
it had to get a weapon because India had a weapon, and we see 
others going on.
    So this chain is one that we have worked hard to try to 
break, and in a number of cases, we have been successful. It 
has not been a totally feckless proposition.
    You look at South Africa. You could look at the potential 
for South Korea in the past, for Taiwan in the past, and so on. 
And I think we obviously need to keep it up. And so, strongly, 
strongly, my view is we must stop proliferation in Iran.
    The Chairman. Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    Mr. Pickering, you made comment about the 2003 decision 
that was made, which I think everyone agrees to. I have 
reservations about the permanency of that decision or the depth 
of that decision. You seem to accept that decision as one that 
it really overrides what is going on today.
    How do you square that with the fact that they are building 
so many centrifuges, they are increasing the number of 
centrifuges rapidly, and the degree to which they are enriching 
nuclear material? How does that square with the 2003 decision?
    Ambassador Pickering. I share your concerns. I believe that 
were you to get a briefing, you would not believe that there is 
such a rapid expansion of centrifuges, but any expansion 
concerns me.
    My own----
    Senator Risch. By the way, I do get briefings. I am on the 
Intelligence Committee.
    Ambassador Pickering. OK.
    Senator Risch. Relatively regularly.
    Ambassador Pickering. I assumed you were. In any event, you 
might want to ask that question again with respect to the pace 
and speed.
    The next question that I think we have to address is are 
the centrifuges solely devoted to a program which our 
Intelligence Committee, at least as of the last time I heard, 
believes is not a weapons program. I don't know the answer to 
that.
    They claim they would like to have the material so that the 
reactor that they have and the reactors they might buy in the 
future, they can assure there will be fuel for that.
    And I----
    Senator Risch. But the problem--the problem----
    Ambassador Pickering. Let me, if I may, please answer that?
    Senator Risch. Go ahead.
    Ambassador Pickering. And then I will get into the 
dialogue. The fatwa is more than just the isolated musings of 
an addled cleric. But you will have to get experts on Shiism to 
talk to you about it. I have looked into it. I believe it could 
be reversed. I believe it could be rapidly reversed were they 
attacked.
    Finally, I would say we need to find a way, in my view, to 
get the various pieces of this program under control, 
regardless of what we may say or believe about where they are 
going in the future, and that is, in my view, the purpose of 
negotiations.
    And thank you for your patience, and I am ready for any 
other question you have got.
    Senator Risch. Well, I guess the only part I have 
difficulty with is the degree to which they are enriching. I 
mean, it is hard, when you look at the percentage and the 
degree to which they are enriching, it really hard to say, 
well, you know, this could be for civilian or it could be for 
medical.
    There are some real issues there. Would you agree with me 
on that, Mr. Pickering?
    Ambassador Pickering. I do, and I have a fundamental 
question about why they would need enrichment at all if they 
haven't bought the reactors and they have to go to Russia for 
the reactors. And Russia seemingly will not provide the 
reactors without the fuel and the spent fuel.
    These all worry me, and they are all very much part of my 
continuing concern about what we are engaged in here. My hope 
is that we can start a process that can get at these, but I 
mean, I believe that it is incumbent upon us to do everything 
we can to make that process work.
    But I can't tell you any more than anybody else at this 
table can tell you there is any guarantee that it will work.
    Senator Risch. You made a comment, I think it was 
parenthetically, but you talked about, I think I picked up your 
comment about Iran's preoccupation with drugs. And you were 
using it as compared to our preoccupation with their nuclear 
program, something like that.
    It is something we don't talk about much. Could you give 
us, briefly give us your thoughts on that?
    Ambassador Pickering. Yes, sir. I merely said it was a 
subject in which Iran would like, I believe, to talk to us 
about seeing, in fact, whether more active action could be 
taken, and I think that they specifically refer to Afghanistan. 
They have made comments, and I don't think there are any 
reasons to doubt these, there may be that they have lost over 
3,000 people in the long war against drugs moving across their 
border from Afghanistan.
    And we have had a considerable problem in Afghanistan, as 
you know. Our problem has been----
    Senator Risch. What----
    Ambassador Pickering [continuing]. The lack of an ability 
to provide a serious and immediate or at least fast-acting 
alternative to the cultivation of drugs that doesn't at the 
same time produce a significant recruiting tool for the 
Taliban. And as we are now postured, we are working on long-
term solutions. While at the same time, drugs continue to 
produce significant amount of income, which I cannot believe 
stays away from funding Taliban interests in Afghanistan.
    So it is a part of the problem. And to some extent, they 
see a common interest in both our parts, but I have been in 
Russia and I have talked to Iranians, and they both say why 
aren't you, now that you are, you know, in a big position in 
Afghanistan, doing more to stop the drug cultivation which, in 
some ways, feeds the problem monetarily.
    And our answer has to be, well, we are going to have to do 
everything we can. But we cannot feed the problem in terms of 
producing more new fighters in the hands of the Taliban if we 
can possibly avoid that. And this has been a very tough 
decision, one that I am troubled by, but I wish I could tell 
you I knew a fast-acting and easy solution to deal with it.
    Senator Risch. That same question has been asked by a 
number of us United States Senators, and it is the elephant in 
the room nobody wants to talk about.
    General Cartwright, just briefly, you talked about the 
steps that Iran would have to go through to produce, to get to 
the point of a nuclear weapon. And a number of those were based 
upon your analysis, or at least an analysis of their own 
development.
    Assuming you have access to intelligence information, are 
you concerned with the commerce between North Korea and Iran, 
which could short-circuit some of those steps? Because 
obviously North Korea has accomplished those steps and has 
already gone through this. And they both, in many respects, 
have similar motivations regarding the United States. Does that 
concern you?
    General Cartwright. It does. It does. It concerns me from 
the standpoint of weaponization reprocessing and then 
weaponization. Also concerns me from the standpoint of 
delivery. The components that could be manufactured or at least 
developed in Korea for their weapons systems, missiles, could 
easily migrate. And you just have to worry about that because 
it would fundamentally change the timelines to fielding these 
types of capabilities.
    Senator Risch. And of course, this is not only measured by 
us, but also by the Israelis?
    General Cartwright. Right.
    Senator Risch. Thank you. My time is up.
    Thank you very much, Mr. Chairman.
    The Chairman. Thanks very much, Senator. I appreciate it.
    Do any other Senators have additional questions they wanted 
to ask?
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    You may have addressed this in your opening remarks, but 
there has been a lot of--in the media, there has been a lot of 
discussion about redlines and whether there should be redlines 
for--that should govern our negotiations with Iran. I think 
Secretary Panetta said that a redline would be an Iranian 
effort to actually construct a nuclear weapon.
    So I have two questions really. One is, is there general 
agreement on what that Iranian effort to actually construct a 
nuclear weapon would look like? And second, what do each of you 
believe with respect to redlines around any future U.S. action 
or negotiations?
    Ambassador Pickering. I might go ahead, and I would 
certainly defer to General Cartwright and all of the military 
pieces. My sense is that the best bright redline I could come 
up with at the moment is a decision to make a nuclear weapon. 
We may or may not know about it immediately.
    If that decision is to use what has already been produced 
in the way of, say, low-enriched uranium as the basis for 
upgrading, then we will know about it because all of that 
material and the operational system that supports it is under 
IAEA control--seals and visits and cameras.
    If the decision is to develop a completely black program 
from zero, with no relationship to the existing program except 
for perhaps the passage of information, and even that would 
open it up to some transparency, then I think it would take a 
quite long time to produce. If there is intercommunication, if 
I could put it, between the black program and the existing 
program, then there are obviously chances of detection, but not 
perfect.
    But my feeling is that is a much better redline than the 
redline of nuclear capability, which, as we know, floats around 
and is something the Israelis are concerned about because they 
are feeling that they have perhaps limited military capability 
with respect to some underground and other installations.
    My feeling is that nuclear capability already exists. If 
you look around the world, most people who engage in one way at 
all with things like enrichment and reprocessing have ``nuclear 
capability.'' The nuclear capability is dual purpose, as we all 
know. There are reasons why we call it sensitive technology and 
why we have struggled for years to try, despite the freedom to 
use it in the Nonproliferation Treaty, to bring it under some 
more control.
    And indeed, my own view is that it would be well worthwhile 
for us to look at even having the declared nuclear states put 
their sensitive facilities under much more strict international 
control and perhaps multinational management as a way to get at 
this fundamental problem. But it is a very fuzzy area.
    Does reading a book that gives you some of the critical 
information about this, which is in public, entitle you to be 
in the area of nuclear capability and, therefore, subject to 
bombing by somebody who doesn't trust you or doesn't like your 
program? So we see all of that. And I don't know that I have a 
good bright redline to give you under nuclear capability.
    You could begin to think about, at least on one side, the 
use of research to develop tools that have nothing to do with 
civil nuclear power but have to do with weapons development. 
And those have been the IAEA concerns about possible military 
developments in Iran, including such things as ignition systems 
for nuclear weapons and the explosive systems that are used, in 
effect, to create a fission reaction in nuclear weapons, which 
are quite different.
    And we have seen signs, as the IAEA has, of those before 
2003 in Iran, and they are worrying. And it is one of the 
things that the international community, including the United 
States, would like to have the Iranians clear up as we work our 
way through a negotiating process that should try to end this 
program.
    Would they be redlines? Possibly. But again, it would take 
a lot of scientific work and some real care, in effect, to 
understand what those were and how and in what way they could 
be dealt with.
    My own view is if that is the case, the first option would 
be to deal with them the way we have been dealing with them in 
Iran and use our considerable pressure and our growing 
pressure, in a sense, to try to get that set of situations 
explained, stopped if it continues, we don't believe it is, and 
put behind us.
    Senator Shaheen. So, based on that, I assume the answer is 
that there isn't a commonly accepted definition for nuclear 
capability that we could all agree to?
    General Cartwright. Could I just add just briefly?
    Senator Shaheen. Yes, please.
    General Cartwright. I mean, there are kind of three issues 
here. If the adversary doesn't know what your redlines are, 
they don't know when they cross them. So you have to put them 
forward.
    If you put them forward and then you negotiate through 
them, beyond them, you lose credibility. And the third issue, 
which I think we are probably starting to see play out with the 
Korean missile launch here that is projected, is other parties 
may see this differently than we do. And so, in the case of 
Korea right now, the Japanese and their administration are 
taking a look at alternatives that we may not be considering.
    And so, this is a very difficult area, and making those 
lines too bright red oftentimes undermines our credibility.
    Senator Shaheen. And so, does that argue for not doing 
that? For not trying to set----
    General Cartwright. My sense is you have to have redlines. 
You have to put them out, but you have to also understand that 
you are entering into a negotiation and that other parties may 
see those redlines differently, and it makes it very difficult 
to move forward.
    Senator Shaheen. Mr. Sadjadpour, do you share that?
    Mr. Sadjadpour. I do share that, and I wanted to note that 
of the three examples General Cartwright gave, the first two 
exist in the context with Iran, meaning we don't have clear 
communication with them to communicate redlines to them, and 
that is why I do advocate dialogue. I think, if nothing else, 
it is very important to be able to communicate those redlines 
to them directly.
    And over the last 6, 7 years, Iran has continuously 
transgressed what were perhaps not very bright redlines, but 
things that the Israelis had communicated in the public realm 
would be redlines. My concern is their facility in Fordo 
outside of Qom, and it is my sense--this is speculation. But it 
is my sense that if they go beyond 20-percent enrichment in 
Fordo, that could be transgressing a redline, which could 
trigger some type of military conflagration.
    Senator Shaheen. So, General Cartwright, if the Israelis 
were to bomb Iran, I assume that would result in some 
corresponding action on the part of the United States.
    And can you--do we have any good predictions for what would 
result in the Middle East as the result of that kind of action?
    The Chairman. Before you answer that, if I could just say I 
have to go to a meeting at noon. So I apologize.
    Senator Lugar, would you close it out, if you could, 
afterward and----
    Senator Shaheen. Yes, that is my last question.
    The Chairman [continuing]. I thank all of the witnesses for 
being here today. It has been a very, very helpful and 
important hearing. Thank you.
    I am sorry, Senator, to interrupt you.
    General Cartwright. You know, you are trying to forecast, 
and my crystal ball is probably no better than anybody else's 
here. But the concern would likely be that there would be an 
initial exchange of ballistic missiles, short and medium range, 
which I believe the Israelis have already put into their 
calculus and for which the region is now starting to develop a 
very robust capability against.
    It doesn't mean it is a shield. It just means the 
likelihood is diminished. Then the likelihood of asymmetric 
actions, as people have called it, but terrorist type acts that 
are focused at undermining the confidence of each of the 
nations' populace and government, and they could take the form 
of critical infrastructure. They could take the form of going 
against civilian population concentrations.
    All of those are possible. So that is where things like 
passive defenses, stand-off and what not, are important to try 
to deter what is generally accepted as nondeterrable type 
activities, but remove from the adversary the goal they seek.
    The other is that, and we have talked briefly about, is 
that an attack like that could very easily steel the resolve of 
the Iranian people that, ``See, this is what we have said.'' 
And so, I think all of those are on the very negative side of 
this activity of considering. And again, I would never remove 
this as an option from a President, but I think our judgment 
here at the table is that it is not a good option, and 
certainly it should be left for the very last.
    Senator Shaheen. Thank you.
    Thank you, Senator Lugar.
    Senator Lugar [presiding]. Thank you very much.
    I have just one final question. I mentioned in my opening 
remarks that sometimes the thought is expressed that the 
Iranian program could trigger other countries in the Middle 
East to feel that in terms of their own defense or prestige or 
for a variety of other reasons, including maybe the continuity 
of their own regimes, they ought to develop nuclear weapons 
programs.
    Is that a realistic assumption, or is it simply a debating 
tool? Or do you have any judgment as to technically or 
financially or foreign policywise whether it is likely--and I 
don't want to name countries for fear of being accused of at 
least impugning their situations. There are some candidates at 
least often mentioned. But as a general principle, is the 
proliferation idea a valid one?
    Ambassador Pickering. Perhaps I could start? I know the 
others will want to comment as well.
    My sense is that it is more than just a kind of arguing 
point. It is more than chimerical. It is, in fact, serious 
enough for us, in my view, even in advance of any such steps, 
to be taking actions, and I have welcomed the agreement that we 
have signed, the 123 agreement with the UAE, which is buying 
reactors from Korea. Which agreement, in fact, with the UAE's 
full cooperation, is keeping them away from the sensitive 
facilities and taking actions that make sense.
    Others may or may not be prepared to come along. In the 
past, we have had a history with Turkey on this issue. My 
feeling is we have had a history with Egypt on this issue, and 
we need to find ways to reinforce the reasons that I think you, 
with great justification, have put forward that might move them 
in this direction, including questions of defense and 
stability.
    I think we should give very careful consideration to what 
additional assurances we should give those states that do not 
proliferate with respect to the threats and dangers that might 
be against them beyond what we already have under the 
Nonproliferation Treaty.
    Whether that is as extensive as Article 5 of NATO or not, I 
don't know. But it would seem to me that it would be in our 
interest to do that whether Iran proliferates or not perhaps in 
terms of building our relationships and stability in the area. 
Whether other nuclear powers ought to also join us in this as a 
way of providing a kind of more secure roadblock against 
disintegration in the area, I would not foreclose other states 
in the region.
    I would have to be cautious, and we would have to think 
through very carefully how this related to Israel, which, as we 
all know, has not declared and at the same time is widely 
assumed to be in that category. But up until now, and certainly 
my experience in Israel, where I lived there for a period of 
time representing the country, is that they are not throwing 
around whatever it is they think--people think they may have, 
if I could phrase it that way, in a threatening way.
    And my sense is that we need to look at all of those 
questions and options and examine them. I hope they are being 
looked at because they can help us provide for more stability 
and more security in a region which, at the moment, is being a 
little more than torn apart by instability, insecurity. Not 
just in the country we are talking about, but elsewhere.
    Senator Lugar. General Cartwright.
    General Cartwright. I think, Senator, the thing that 
worries me probably the most here is--and I am trying to choose 
the words carefully. It is the proliferation issue of the 
technology, not necessarily the pure weaponization or the 
ownership of weaponization. It is the fact that the fuel cycle 
is now very well understood around the world. That the nodes on 
the fuel cycle where weaponization can occur are now known how 
to make them relatively obscure to visibility and inspection.
    And that that knowledge, that intellectual capital is now 
moving and potentially moving faster as a result of this 
activity and is likely--you can look at the pattern of Iran 
versus North Korea--is likely to emerge in other places. They 
may emerge in allies. It may emerge in adversaries.
    But that knowledge is not going to be uninvented. So we 
are--if you look farther down the road, which I know you do, 
this problem is not going away. In the short term, we are 
worried about Iran. And the longer term problem for us as a 
planet is the proliferation of this activity.
    Mr. Sadjadpour. Senator Lugar, I share very much Ambassador 
Pickering's comments, and I would say that if there is one 
country in the world which perhaps is more concerned about a 
nuclear-armed Iran than Israel is it is Saudi Arabia. Saudi 
Arabia views the Middle East very much through sectarian 
lenses. They see the Iranian regime as being irrational Shiites 
which can't be deterred.
    And if they were to decide, if the Saudis were to decide to 
build their own nuclear program, it would take them probably 
over a decade. The option, which many people talk about, is 
Saudi Arabia somehow acquiring a nuclear device from Pakistan. 
I am not sure if that is a strong possibility. But I would just 
go back to Ambassador Pickering's proscriptions that this is 
something that we should be talking about and planning for 
right now.
    Senator Lugar. Well, I thank you each for those responses 
because this is, I suspect, another avenue of diplomacy that is 
related to Iran, which we are discussing today, but also 
clearly pertains to longer term objectives of security for our 
country, as well as for our friends in the Middle East.
    Do you have any further questions, Senator Shaheen?
    Well, we just thank you all very, very much. This has been 
a tremendous hearing, tremendously informative for us and we 
hope for citizens of the country who have been listening to you 
and to the responses to our questions.
    And the hearing is now adjourned.
    [Whereupon, at 11:57 a.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
